<html>
<title> - EPA'S FISCAL YEAR 2007 SCIENCE AND TECHNOLOGY BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                     EPA'S FISCAL YEAR 2007 SCIENCE
                     AND TECHNOLOGY BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2006

                               __________

                           Serial No. 109-41

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
26-576                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
BOB INGLIS, South Carolina           AL GREEN, Texas
DAVE G. REICHERT, Washington         CHARLIE MELANCON, Louisiana
MICHAEL E. SODREL, Indiana           DENNIS MOORE, Kansas
JOHN J.H. ``JOE'' SCHWARZ, Michigan  VACANCY
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
JUDY BIGGERT, Illinois               BRAD MILLER, North Carolina
WAYNE T. GILCHREST, Maryland         MARK UDALL, Colorado
TIMOTHY V. JOHNSON, Illinois         LINCOLN DAVIS, Tennessee
DAVE G. REICHERT, Washington         BRIAN BAIRD, Washington
JOHN J.H. ``JOE'' SCHWARZ, Michigan  JIM MATHESON, Utah
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
                AMY CARROLL Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
                 CHAD ENGLISH Professional Staff Member
                  JAMIE BROWN Majority Staff Assistant


                            C O N T E N T S

                             March 16, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative David Wu, Ranking Minority Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

                               Witnesses:

Dr. George M. Gray, Assistant Administrator for Research and 
  Development and EPA Science Advisor, United States 
  Environmental Protection Agency
    Oral Statement...............................................    13
    Written Statement............................................    14
    Biography....................................................    17

Dr. M. Granger Morgan, Chairman, Science Advisory Board, United 
  States Environmental Protection Agency
    Oral Statement...............................................    18
    Written Statement............................................    19
    Biography....................................................    23
    Financial Disclosure.........................................    24

Dr. Donald N. Langenberg, Vice Chairman, National Council for 
  Science and the Environment
    Oral Statement...............................................    25
    Written Statement............................................    26
    Biography....................................................    30

Mr. Jeffrey P. Ruch, Executive Director, Public Employees for 
  Environmental Responsibility
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    40
    Financial Disclosure.........................................    40

Discussion.......................................................    41
    Paying for Homeland Security Research........................    43
    Water Sentinel...............................................    44
    Scientific Integrity.........................................    45
    IRIS Reform..................................................    47
    Impact of Budget Cuts........................................    49
    Scientific Integrity.........................................    50
    Environmental Technology Verification Program................    51

             Appendix 1: Answers to Post-Hearing Questions

Dr. George M. Gray, Assistant Administrator for Research and 
  Development and EPA Science Advisor, United States 
  Environmental Protection Agency................................    58

             Appendix 2: Additional Material for the Record

Statement of the American Chemical Society.......................    74

Science and Research Budgets for the U.S. Environmental 
  Protection Agency for Fiscal Year 2007; An Advisory Report by 
  the Science Advisory Board, March 2006, the Science Advisory 
  Board (SAB)....................................................    76


     EPA'S FISCAL YEAR 2007 SCIENCE AND TECHNOLOGY BUDGET PROPOSAL

                              ----------                              


                        THURSDAY, MARCH 16, 2006

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                     EPA's Fiscal Year 2007 Science

                     and Technology Budget Proposal

                        thursday, march 16, 2006
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Thursday, March 16, 2006 at 10:00 a.m. the House Science 
Committee's Subcommittee on Environment, Technology, and Standards will 
hold a hearing to examine the Environmental Protection Agency's (EPA) 
fiscal year 2007 (FY07) budget request for Science and Technology 
(S&T).

2. Witnesses

Dr. George Gray, Assistant Administrator for the Office of Research and 
Development and Science Advisor, U.S. Environmental Protection Agency.

Dr. M. Granger Morgan, Chair, EPA's Science Advisory Board (SAB); Lord 
Chair Professor in Engineering and Professor and Department Head, 
Department of Engineering and Public Policy, Carnegie Mellon 
University.

Dr. Don Langenberg, Vice-Chair, the National Council for Science and 
the Environment; Chancellor Emeritus of the University System of 
Maryland; Professor of Physics and Electrical Engineering, University 
of Maryland; former President, American Association for the Advancement 
of Science.

Mr. Jeff Ruch, Executive Director, Public Employees for Environmental 
Responsibility.

3. Overarching Questions

        1.  Is the overall level of Science and Technology (S&T) 
        funding appropriate and are the priorities balanced among core 
        research, mission-driven research, emerging issues, and 
        homeland security?

        2.  In particular, what are the consequences of the past and 
        proposed reductions to ecological research, sustainability 
        research, climate change research, graduate fellowships, and 
        technology verification programs?

4. Background

    EPA's overall FY07 budget request is $7.3 billion. The S&T portion 
of the budget request is $788 million or a bit more than 10 percent of 
the total. The remainder of the budget is divided into several 
accounts. One account funds the agency's air, water, waste, toxics and 
pesticides programs, one supports clean up of hazardous waste sites 
under the Superfund program, and another provides grants to states to 
support EPA's Clean Water Act programs.
    Nearly $528 million (72 percent) of S&T funding is for EPA's Office 
of Research and Development (ORD), which is the primary research arm of 
the agency. ORD also receives a small amount of funding from the 
agency's Superfund program for research on hazardous waste remediation. 
Typically, most of the remaining S&T funds go to the Office of Air and 
Radiation, and a smaller amount to the Office of Water. The agency's 
FY07 budget request proposes a larger share of S&T funds than in past 
years for the Office of Water's homeland security activities.
    ORD conducts and sponsors both fundamental research in 
environmental science and more targeted research that informs EPA's 
regulatory programs. For example, ORD develops the scientific risk 
information for the agency's Integrated Risk Information System (IRIS), 
a database about human health effects from chemicals in the 
environment. It is used by EPA programs and states to help determine 
hazardous waste site clean up levels and drinking water standards. In 
air quality, ORD develops the scientific underpinning for EPA's air 
quality standards in areas such as particulate matter and ozone. And 
ORD also investigates newer environmental questions such as the 
environmental implications and applications of nanotechnology.
    To carry out these responsibilities, ORD both conducts intramural 
research at EPA's laboratories and supports fellowships and research at 
colleges and universities through the Science to Achieve Results (STAR) 
grant program.

5. Budget Highlights

        <bullet>  The FY07 budget requests $788 million for S&T at EPA, 
        a $58 million (eight percent) increase from the FY06 enacted 
        level of $730 million. However, that figure includes an 
        accounting change, which transfers $62 million from the 
        Environment Programs and Management account to the S&T account. 
        The accounting change is intended to more accurately allocate 
        facility rents to the appropriate account and does not allow 
        for any increased spending on programs. Excluding the 
        accounting change, the S&T budget request is $726 million, 
        slightly less than a one percent decrease from FY06 enacted 
        level, and $71 million (12 percent) below the peak funding in 
        FY04.

        <bullet>  The FY07 request would decrease the budget to $557 
        million; $38 million (six percent) less than the FY06 enacted 
        level. About $20 million of that reduction is the result of the 
        Administration removing Congressional earmarks from the FY06 
        base.

        <bullet>  If enacted, the FY07 request for ORD would be its 
        lowest funding level since FY00 and $90 million (14 percent) 
        less than its peak funding level of $646.5 million in FY04.

        <bullet>  The FY07 S&T request includes nearly $9 million for 
        research on the environmental implications of nanotechnology, 
        an 80 percent increase over the FY06 enacted level. At a recent 
        Committee hearing on nanotechnology, industry and environmental 
        community witnesses called for a substantial increase in the 
        federal R&D investment in environmental implications of 
        nanotechnology.

        <bullet>  The FY07 S&T request includes $92 million for 
        research related to homeland security, an 83 percent increase 
        over the FY06 enacted level. This represents 12 percent of the 
        S&T account. Almost 50 percent of the request ($45 million) is 
        for the Office of Water's Water Sentinel pilot program, which 
        would receive an increase of more than 500 percent above the 
        FY06 enacted level of $8.1 million. The program (described in 
        more detail below) is designed to help protect the Nation's 
        drinking water from intentional contamination.

        <bullet>  The FY07 S&T request includes $79 million for 
        Ecosystem Research, $7 million (or eight percent) below the 
        FY06 enacted level, and $28 million (26 percent) below the FY04 
        enacted level. Almost all of the FY07 reduction ($5 million) 
        would be taken from the Environmental Monitoring Assessment 
        Program, (EMAP), which supports states' measurements of water 
        quality conditions and ecosystem health.

        <bullet>  ORD's Sustainability Research program (formerly 
        called the Pollution Prevention Research program) would receive 
        $21 million in FY07, $8 million (or 23 percent) less than the 
        FY06 enacted level, and $16 million (or 43 percent) less than 
        FY05.

        <bullet>  The budget request would reduce funding for the 
        Science to Achieve Results (STAR) Graduate Fellowships from the 
        FY06 level of $9.3 million to $5.9 millions, a $3.4 million (or 
        37 percent) decrease.

        <bullet>  The FY07 budget proposes two reductions in research 
        related to climate change. The largest is a $6 million (33 
        percent) reduction in S&T funding for the Clean Automotive 
        Technology program in the Office of Air and Radiation. This 
        follows a 10 percent reduction between FY06 and FY05. The FY07 
        budget also proposes a reduction in ORD's global change 
        research program of $1.2 million from the FY06 enacted level of 
        $19 million. This program focuses on understanding the 
        consequences of global change, particularly climate variability 
        and change, for human health and ecosystems. The proposed 
        reduction follows a previous reduction of $1 million between 
        FY06 and FY05.

        <bullet>  The FY07 budget proposes the elimination of the 
        Superfund Innovative Technology Evaluation (SITE) Program ($3.7 
        million) and the near elimination of funding for the 
        Environmental Technology Verification (ETV) program ($2.9 
        million). Both programs support the development and 
        implementation of innovative environmental technologies. The 
        SITE program was created in the Superfund statute.

6. Key Issues

    The overall spending by EPA's research programs has been declining 
for several years. The Administration argues that the agency's research 
is adequately funded given overall constraints on the federal budget 
and that EPA S&T funds have been focused on emerging priorities, while 
programs that are not as pressing or effective have been scaled back. 
Critics of the budget, including EPA's Science Advisory Board, have 
argued that EPA's core research programs are being eroded in ways that 
will limit understanding of the environment and hamper the agency's 
ability to formulate sound policies. Both viewpoints will be 
represented at the hearing.
    The information below describes programs that have received some of 
the most significant cuts or increases.
    Ecological Research. ORD's ecological research aims to assess 
ecosystem conditions and trends, diagnose impairments, forecast 
ecosystem vulnerability and, ultimately, restore degraded ecosystems. 
The proposed FY07 budget represents an eight percent reduction from the 
FY06 enacted level and a 26 percent reduction since FY04. The proposed 
FY07 cut would be taken primarily in the Environmental Monitoring 
Assessment Program (EMAP), which would be reduced by $5 million, a cut 
that would leave the program with about half of what it had received in 
FY04. The Office of Management and Budget (OMB) gave the program a low 
rating, concluding that it had shown a ``lack of progress in developing 
adequate performance measures.'' Others have come to different 
conclusions. EPA's Board of Scientific Counselors rated the program 
highly, and its supporters argue that the program has helped develop 
ways to measure water and ecosystem quality along the Nation's coastal 
areas and in the mid-Atlantic region.
    Sustainability research. ORD's Sustainability Research program 
(formerly called the Pollution Prevention Research program) would 
receive an $8 million or 23 percent decrease in FY07 from the FY06 
enacted level of $29 million, and would result in a 43 percent decline 
since FY05. Included in the FY07 proposed reductions is a cut to the 
agency's green chemistry research by 23 percent to $5.1 million from 
the FY06 enacted level of $6.6 million. The Science Committee approved 
a bill last March, sponsored by Rep. Gingrey, seeking to increase the 
focus on green chemistry research across the government.
    Another proposed reduction in sustainability is for research on 
pollution prevention tools, including life cycle assessment, that is, 
research on how to reduce pollution throughout the life cycle of a 
product from manufacturing through use and disposal. It is unclear 
whether the cut would have an affect on life cycle assessments related 
to nanotechnology, which both industry and environmental groups have 
sought.
    The sustainability programs have not performed well in OMB reviews, 
which try to determine if programs have clear quantitative goals and 
whether those goals are being met.
    Climate change research. The FY07 budget proposes a cut of $6 
million (33 percent) in FY07 for the Clean Automatic Technology 
program. EPA says the budget reflects the phase out of a multi-year 
federal investment in hydraulic hybrid technology development as the 
private sector picks up the technologies.
    The FY07 budget also proposes a reduction in ORD's global change 
research program of $1.2 million from the FY06 enacted level of $19 
million. The proposed reduction would reduce investment in computer 
modeling of climate change impacts on watersheds, coral reefs, and 
sewer systems in this program that is closely aligned with the 
government-wide Climate Change Science Program (CCSP). EPA's global 
change budget was stable for a number of years until a $1 million 
reduction in FY06. EPA's budget documents do not provide a rationale 
for the cut. Government-wide climate research is flat-funded in the 
FY07 budget at about $1.7 billion.
    Homeland security. EPA's homeland security responsibilities include 
setting cleanup standards for remediation after an attack, protecting 
the Nation's water infrastructure and ensuring that the Nation has 
adequate laboratory capacity. Homeland security research competes for 
funding with the more traditional research responsibilities of the 
agency. The Administration argues this is a necessary setting of 
priorities in an era of constrained funding. Others, including the EPA 
Science Advisory Board, are concerned that homeland security research 
is eroding the agency's ability to conduct research in other important 
areas, and argue that the homeland research should be funded at least 
in part with ``new money.''
    Water Sentinel. Run by the agency's Office of Water, with some 
support from ORD, Water Sentinel is a pilot program to develop a 
drinking water monitoring and surveillance system to protect against, 
and respond more quickly to an attack on the Nation's water supply. 
EPA's FY07 request of $45 million from the S&T account is a 500 percent 
increase over the FY06 enacted level of $8.1 million and would expand 
the pilot program to five more cities.
    While the knowledge gained from Water Sentinel could be critical in 
the event of a chemical or biological attack on the Nation's drinking 
water systems, a number of questions remain unanswered. For example, 
has the pilot program been subject to peer review to ensure that it is 
properly focused? Is EPA appropriately involving State and local 
governments in carrying out the pilot program? Does EPA have adequate 
plans for turning Water Sentinel into an operational program?
    Moreover, there are also questions related to funding. Water 
Sentinel is entirely funded out of the S&T account, although aspects of 
it are more like an operational program than like traditional research. 
Operations cost significantly more than research and therefore cut into 
the funding available for other, more typical research programs.
    STAR Grants. EPA created the Science to Achieve Results (STAR) 
grant program in 1995 and program was funded at just over $100 million 
per year between the late 1990s and 2002. The program was recommended 
by an outside advisory panel convened in 1992 and that recommendation 
has been reaffirmed in National Academy of Sciences reports in 2000 and 
2003. The point in all these reports was that EPA should increase its 
funding of students and research in academia to draw on a wider range 
of research. The bulk of STAR funds have been allocated to competitive 
research grants in targeted mission-critical areas, with a smaller 
portion reserved for graduate fellowships and for exploratory research 
on the next generation of environmental challenges.
    The STAR program provides both research grants and graduate student 
fellowships. Since its peak funding level of just over $102 million in 
FY02, the grants program has declined every year. The $65 million FY07 
proposal is five percent below FY06 levels and 36 percent reduction 
below peak funding levels. The agency has proposed eliminating or 
cutting the fellowships every year for the last five years. The FY07 
budget proposes reducing the fellowships by $3.4 million or 37 percent 
below the FY06 enacted level of $9.3 million.
    EPA apparently just views the cuts as a question of priorities as 
it continues to cite extramural research as an important aspect of its 
research portfolio. For example, EPA references the value of the STAR 
program in its testimony for this hearing.
    Nanotechnology. The 21st Century Nanotechnology Research and 
Development Act (P.L. 108-153), which originated in the Science 
Committee, created an interagency nanotechnology research program that 
includes EPA, which focuses particularly on the environmental and 
safety implications of nanotechnology. As it has done in other emerging 
areas of science, the agency turned to its STAR extramural grants 
program to jump-start its research in FY04-FY06. In FY07, ORD proposes 
nearly doubling its funding from $5 million to $9 million, a response 
to calls from industry and environmental groups for increased research 
on potential environmental consequences of nanotechnology.
    Technology programs. Section 311 of the Superfund Act establishes 
the SITE program and directs EPA ``to carry out a program of research, 
evaluation, testing, development and demonstration. . .of innovative 
treatment technologies.'' (Sec 311 (b)(1) ). After significantly 
downsizing the program in FY06, EPA proposes eliminating it in FY07. By 
all accounts, including EPA's own, the SITE program has conducted high-
quality field demonstrations of remediation technologies, and there are 
many SITE evaluated technologies now on the market that have saved 
money and led to more effective remediation efforts. The rationale 
offered in the budget justification for terminating program is that the 
``Superfund program has matured.''
    The budget also proposes to eliminate the ETV program. ETV was 
created in the mid-1990s to help technology developers verify the 
performance of their products in areas other than remediation 
technologies. It was developed using SITE as a model. The FY07 request 
would eliminate the remaining $3 million in funding that the agency has 
used to partner with technology vendors to test the performance of 
their products. The budget would retain a minimal level of internal 
agency funding (less than $.1 million) and staff time for ORD staff to 
do quality control work with companies that wanted to support their own 
performance testing.

7. Witness Questions

Dr. Gray, Assistant Administrator for the Office of Research and 
        Development and Science Advisor, Environmental Protection 
        Agency
    Please briefly summarize EPA's proposed fiscal year 2007 (FY07) 
Science and Technology (S&T) budget, including those programmatic areas 
that would receive significant increases or decreases from FY06 and the 
rationale for these proposed changes. In addition, please answer the 
following questions:

        1.  Given that the funding levels in the FY07 proposed budget 
        for the Office of Research and Development (ORD) are 14 percent 
        below FY04 appropriations, what specific steps has EPA taken 
        oven the past few years and what specific steps will it take in 
        FY07 to ensure that these budget cuts do not affect ORD's 
        ability to:

                a.  keep up with and use the newest scientific methods;

                b.  provide the most up to date scientific information 
                for the agency's regulatory decisions; and

                c.  build strong ties with the external research 
                community and foster graduate student work in the 
                environmental sciences.

        2.  What are the agency's scientific priorities in homeland 
        security? How have those priorities been determined? Given the 
        increasing share of the S&T budget allocated to homeland 
        security, how are you ensuring that the agency's more 
        traditional research programs are receiving adequate funding?

        3.  Why is the proposed 500 percent expansion of the Water 
        Sentinel pilot program relying solely on S&T funding? What 
        specific portions of the Water Sentinel program are operational 
        and which are than research? How does the Agency plan to 
        transition Water Sentinel to an operational program?

Dr. Morgan, Chair, Science Advisory Board (SAB), Environmental 
        Protection Agency; Lord Chair Professor in Engineering and 
        Professor and Department Head, Department of Engineering and 
        Public Policy, Carnegie Mellon University
    Please describe the results of the Science Advisory Board's review 
of EPA's fiscal year 2007 (FY07) budget request for science and 
technology (S&T). In addition, please address the following questions:

        1.  Is the proposed overall level of S&T funding appropriate 
        and are the priorities balanced adequately among core research, 
        mission-driven research, emerging issues, and homeland 
        security?

        2.  What impact are the recent and proposed reductions having 
        on the ORD's ability to:

                a.  keep up with and use the newest scientific methods;

                b.  provide the most up-to-date scientific information 
                for the agency's regulatory decisions; and

                c.  build strong ties with the external research 
                community and foster graduate student work in the 
                environmental sciences?

        3.  Has the agency set the appropriate priorities for meeting 
        the science needs of its homeland security responsibilities? Is 
        the proposed allocation of 12 percent of the S&T budget to 
        homeland security an appropriate amount? What are the 
        consequences of this level of investment for more traditional 
        R&D activities?

        4.  Should the proposed expansion of the Water Sentinel pilot 
        program rely solely on S&T funding? Does EPA have adequate 
        plans for transitioning Water Sentinel to an operational 
        program?

Dr. Langenberg. Vice-Chair, the National Council for Science and the 
        Environment. Chancellor Emeritus of the University of Maryland 
        System; past Chancellor, University of Illinois-Chicago, former 
        President, American Association for the Advancement of Science
    Please address the following questions:

        1.  From a research university perspective, what are the most 
        important strengths and weaknesses of EPA's proposed S&T 
        budget?

        2.  What impact are the recent and proposed reductions having 
        on the ORD's ability to:

                a.  keep up with and use the newest scientific methods;

                b.  provide the most up-to-date scientific information 
                for the agency's regulatory decisions; and

                c.  build strong ties with the external research 
                community and foster graduate student work in the 
                environmental sciences?

Mr. Jeff Ruch, Executive Director, Public Employees for Environmental 
        Responsibility (PEER)
    Please answer the following questions:

        1.  What are the most important strengths and weaknesses of 
        EPA's proposed Science and Technology budget?

        2.  What impact are the recent and proposed reductions having 
        on the ORD's ability to:

                a.  keep up with and use the newest scientific methods;

                b.  provide the most up-to-date scientific information 
                for the agency's regulatory decisions; and

                c.  build strong ties with the external research 
                community and foster graduate student work in the 
                environmental sciences?
    Chairman Ehlers. I am pleased to call this hearing to 
order.
    Normally, we wait for a Member of the Minority to show up 
as well, but since we are battling deadline, presumably some 
time between now and 10:30, we will be called to vote. I am 
anxious to get this hearing started, and try and receive all of 
your testimony before the vote barrage hits. We will probably 
then be voting until noon, and we will have to come back and 
renew our efforts at that point. So, let me begin with my 
opening statement, and I will try to condense it a bit, so we 
can speed things along.
    I am very pleased today to have a hearing on the 
Environmental Protection Agency's Fiscal Year 2007 science and 
technology budget. I suspect this is a little more important 
than most of the hearings we have had in the past, because of 
the financial difficulties faced by the Agency. At the outset 
of the hearing, I want to recognize Dr. George Gray, the EPA's 
Assistant Administrator for Research and Development, who is 
making his first appearance before the Subcommittee. So 
welcome. We will try not to chew you up too badly this time. 
And we will try to--whatever chewing we do will be accompanied 
with a great deal of sympathy.
    I had the opportunity with Dr. Gray several months ago, and 
was very pleased to learn about his interest and expertise in 
the subject of risk assessment. I am looking forward to 
learning more about what you are trying to improve--do--pardon 
me, trying to do to improve risk assessment at the Agency, 
which is very badly needed.
    Every year at our EPA science budget hearing, I have 
pointed out the importance of science and technology at EPA, 
and no one can disagree. EPA's Office of Research and 
Development has been at the forefront of every one of the 
Agency's major regulatory actions. It conducts the research on 
what we know about the health and ecological effects of mercury 
and other contaminants. It prepares the scientific 
underpinnings of all of the Agency's clean air rules on 
particulate matter and ozone. It has helped develop and 
commercialize better environmental technologies to clean up 
hazardous, and it is always looking for the next scientific 
advance that may help us better understand the environment or 
threats to it, and how to counter those threats.
    That is why I come to this hearing very concerned about 
what I see happening to EPA's science budget. The six percent 
proposed reduction in the ORD's budget for fiscal year 2007 is 
troubling, but not as much as the trend in the budget over the 
last few years, which would be down 14 percent since 2004. This 
trend, together with the rapid growth in spending on Homeland 
Security research, which alone accounts for almost 12 percent 
of the science budget, seems to be making it harder for ORD to 
continue producing the valuable scientific knowledge I just 
mentioned. I say all of this, mindful of the significant 
constraints we face in the discretionary budget, but just as we 
can't afford to spend too much, we can't afford to spend too 
little.
    EPA's Science Advisory Board takes a close look at the 
EPA's science budget every year, and has in the past sounded 
the alarm bells when it thought it was necessary. I am looking 
forward to the Board's thoughts and comments on the current 
budget request.
    Finally, I am interested in learning more about how the 
budget treats particular areas of research, such as 
nanotechnology, ecological research, university grants and 
fellowships, green chemistry, and climate change.
    We have an excellent panel of witnesses today, and I expect 
that we will learn a great deal. I certainly look forward to 
receiving your testimony.
    And now, I apologize to Mr. Wu for starting without him. 
Normally, we would never do this, but I explained we are in a 
great rush today because of the votes. We are trying to 
conclude their testimony before the votes, and pick up 
questions afterwards.
    I am pleased now to recognize the Ranking Member, Mr. Wu, 
for his opening statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good Morning. Welcome to today's hearing on the Environmental 
Protection Agency's fiscal year 2007 Science and Technology budget.
    At the outset of the hearing, I would like to recognize Dr. George 
Gray, EPA's Assistant Administrator for Research and Development, who 
is making his first appearance before this subcommittee. Welcome!
    I had the opportunity to meet briefly with Dr. Gray several months 
ago, and I was very pleased to learn about his interest and expertise 
in the subject of risk assessment. I am looking forward to learning 
more about what you are doing to improve risk assessment at the agency.
    Every year at our EPA Science budget hearing, I have pointed out 
the importance of science and technology at EPA. And, who could 
disagree. EPA's Office of Research and Development has been at the 
forefront of every one of the agency's major regulatory actions. It 
conducts the research on what we know about the health and ecological 
effects of mercury and other contaminants. It prepares the scientific 
underpinnings of all of the agency's clean air rules on particulate 
matter and ozone. It has helped develop and commercialize better 
environmental technologies to clean up hazardous wastes. And, it is 
always looking for the next scientific advance or revolution that may 
help us better understand the environment or threats to it, and how to 
counter those threats.
    That is why I come to this hearing very concerned about what I see 
happening to EPA's science budget. The six percent proposed reduction 
in the ORD's budget for fiscal year 2007 is troubling, but not as much 
as the trend in the budget over the last few years--which would be down 
14 percent since 2004. This trend, together with the rapid growth in 
spending on homeland security research, which alone accounts for almost 
12 percent of the science budget, seems to be making it harder for ORD 
to continue producing the valuable scientific knowledge I just 
mentioned. I say all of this mindful of the significant constraints we 
face in the discretionary budget. But just as we can't afford to spend 
too much, we can't afford to spend too little.
    EPA's Science Advisory Board takes a close look at the EPA's 
science budget every year, and has in the past sounded the alarm bells 
when it thought it was necessary. I am looking forward to the Board's 
thoughts on the current budget request.
    Finally, I am interested in learning more about how the budget 
treats particular areas of research, such as nanotechnology, ecological 
research, university grants and fellowships, green chemistry and 
climate change.
    We have an excellent panel of witness today and I expect that we 
will learn a great deal. I look forward to your testimony.

    Mr. Wu. Terrific. Thank you very much, Mr. Chairman, and 
thank you for holding this important hearing today.
    Environmental issues present increasing challenges for us. 
We all want a robust economy and access to products and 
services that sustain and improve our quality of life. Through 
our investments and research and development, we have been able 
to promote both environmental protection and economic growth. 
Done right, these interests are not in conflict, rather, they 
go hand in hand.
    A clean, healthy environment is not a luxury. It is a 
necessity. Unfortunately, this Administration has failed, for 
the third consecutive year, to offer a budget that will enable 
us to achieve further successes in environmental protection. 
Three years ago, the EPA science and technology budget was cut 
five percent. In fiscal year 2006, it was reduced again by two 
percent, and this year's proposal further reduces the budget by 
one percent, under the heading ``Advancing Science and 
Innovation.'' This is clearly false advertising. EPA cannot 
advance environmental research if its budget is retreating.
    Targets for cuts include programs in mercury contamination, 
pesticides, ecosystem research, global change and 
sustainability, and the STAR grants program.
    I am particularly concerned about proposed cuts to 
ecosystem research. Research at EPA's Western Ecology Division 
in Corvallis addresses ecological processes and environmental 
change, in order to best protect and manage ecological 
resources. We need more of this kind of research, not less.
    In addition to the budget, I continue to be deeply troubled 
about another issue important to science at EPA and across the 
country and the Federal Government, and that issue is 
scientific integrity.
    I am very disturbed by the continuing reports of 
manipulation of science advisory committees, suppression of 
information, and censorship of federal scientists. These 
reports are not restricted to one agency or department, and 
they encompass a wide range of topic areas. Although the 
Administration dismisses these events as random, the sheer 
number and distribution of complaints across the Federal 
Government suggests an overall political agenda to twist 
science to suit ideological goals.
    I am pleased that we have a witness today who will offer 
some insights into these claims, Mr. Ruch from Public Employees 
for Environmental Responsibility, PEER.
    I want to welcome our entire distinguished panel for this 
morning's hearing, and I look forward to your recommendations 
and comments. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    Good morning. Thank you, Chairman Ehlers for holding this hearing 
today.
    Environmental issues present increasing challenges for us. We all 
want a robust economy and access to products and services that sustain 
and improve our quality of life. Through our investments in research 
and development, we have been able to strike a balance between 
environmental protection and economic growth.
    A clean, healthy environment is not a luxury. It is a necessity. 
Unfortunately, the Administration has failed for the third consecutive 
year to offer a budget that will enable us to achieve further successes 
in environmental protection.
    Three years ago, the EPA S&T budget sustained a five percent cut. 
In FY06, it was reduced again by two percent, and this year's proposal 
further reduces the budget by one percent under the heading: 
``Advancing Science and Innovation.'' This is false advertising.
    EPA cannot advance environmental research if their budget is 
retreating.
    Targets for cuts include programs in mercury contamination, 
pesticides, ecosystem research, global change and sustainability and 
the STAR grants program.
    I am particularly concerned about proposed cuts to ecosystem 
research. Research at EPA's Western Ecology Division in Corvallis 
addresses ecological processes and environmental change in order to 
best protect and manage ecological resources. We need more of this type 
of research, not less.
    In addition to the budget, I continue to be concerned about another 
issue important to science at EPA and across the Federal Government. 
That issue is broadly defined by the term scientific integrity.
    I am very disturbed by the continuing reports of manipulation of 
science advisory committees, suppression of information, and censorship 
of federal scientists. These reports are not restricted to one agency 
or department and they encompass a wide-range of topic areas. Although 
the Administration claims these events are random, the sheer number and 
distribution of complaints across the Federal Government suggests an 
overall political agenda to science.
    I am pleased that we have a witness today who will offer some 
insights into these claims, Mr. Jeff Ruch from Public Employees for 
Environmental Responsibility--PEER.
    I want to welcome our entire distinguished panel to this morning's 
hearing. I look forward to your testimony and to your recommendations 
for improving EPA's scientific enterprise.

    Chairman Ehlers. And thank you, Mr. Wu.
    If there are other Members who wish to submit additional 
opening statements, all such statements will be automatically 
added to the record without objection.
    At this time, I would like to introduce our witnesses. Dr. 
George Gray is the Assistant Administrator for Research and 
Development, and the Science Advisor at the United States EPA. 
This is Dr. Gray's first appearance before the Committee, and 
we are pleased to have him here with us today. I ask everyone 
to treat him well, so that it will not be his only appearance 
before this committee.
    Next, we have Dr. M. Granger Morgan, who is the Chairman of 
the EPA Science Advisory Board, and the Lord Chair Professor in 
Engineering at Carnegie Mellon University. That is interesting, 
to have the Lord here. I was thinking last night, I was reading 
all this material about ORD, and said maybe we should call it 
the laboratory.
    Dr. Morgan. It is a very well endowed professorship.
    Chairman Ehlers. Yes. We might get more money if you were 
the Lord rather than the ORD.
    Dr. Don Langenberg is the Vice Chairman of the National 
Council for Science and the Environment, and the Chancellor 
Emeritus of the University System of Maryland. In addition, I 
have the distinction of having worked in the laboratory next 
door to him at the University of Berkeley some years ago as 
graduate students, and I continue to bask in the reflected 
glory from Mr. Langenberg.
    Next, we have Mr. Jeffrey Ruch. He is the Executive 
Director of Public Employees for Environmental Responsibility, 
better known as PEER, P-E-E-R. As I am sure our witnesses know, 
spoken testimony is limited to five minutes each, and I will 
enforce that, simply because we are trying to get all of your 
testimony completed before the votes begin. After that time, we 
will have plenty of time to question you.
    And I do have to make one comment just in case I am not 
here during the question period. It seems very strange to me 
that EPA is being forced to swallow the cost of the research 
that is being done at the request and on behalf of the 
Department of Homeland Security, which has continued to receive 
very large increases in their budget every year, and while 
EPA's budget is going down, I think we should do our best to 
reverse that. I wanted to get that statement on the record.
    At this point, we will turn to Dr. Gray for his testimony.

 STATEMENT OF DR. GEORGE M. GRAY, ASSISTANT ADMINISTRATOR FOR 
RESEARCH AND DEVELOPMENT AND EPA SCIENCE ADVISOR, UNITED STATES 
                ENVIRONMENTAL PROTECTION AGENCY

    Dr. Gray. Well, thank you, Mr. Chairman, Mr. Wu. I 
appreciate the opportunity to be here before you today to 
discuss the fiscal year 2007 budget request for the 
Environmental Protection Agency. I also--I appreciate your kind 
words, and as a fellow Michigander, I would like to wish you a 
happy Great Lakes Day, and recognize your leadership and 
efforts in supporting and restoring the Great Lakes.
    The President request $788.3 million for EPA's science and 
technology. This demonstrates the President's continued 
commitment to providing the resources needed to address our 
nation's highest priorities, while including continued support 
for homeland security, protecting our environment, and ensuring 
economic growth. The request includes $557 million for the 
Office of Research and Development to continue the work of 
providing the sound science that informs Agency decisions.
    The budget reflects a continued focus on emerging issues, 
as well as our body of base work. We are confronted with new 
opportunities and new challenges all the time, such as 
computational toxicology or the impact of manufactured 
nanomaterials on human health, and in those areas, we will make 
increased or renewed investments. In areas where the major 
science and technology questions have been answered, and where 
additional spending would not be cost effective, there we scale 
back or even cease work. EPA is mindful of our responsibility 
to consider nanotechnology's environmental and health 
implications, so that the American economy can safely realize 
the nanotechnology revolution.
    To meet this responsibility better, the President includes 
an increase of $4 million, including an additional $1 million 
for exploratory grants, for ORD to study the impacts of 
manufactured nanomaterials on human health and the environment, 
and the potential environmental uses of this technology.
    One of the goals of the Administration is to enhance the 
transparency and inclusiveness of the chemical risk assessment 
process, especially that utilizing the Integrated Risk 
Information System. IRIS is an Internet database containing 
information on human health effects that may result from 
exposure to various chemicals in the environment. IRIS was 
initially developed for EPA staff in response to a growing 
demand for consistent information on chemical substances for 
use in risk assessment, decision-making, and regulatory 
activities. It has since grown into the premier national, and 
indeed international database for qualitative and quantitative 
risk information. The information in IRIS is intended for those 
without extensive training in toxicology, but with some 
knowledge of health sciences.
    Since fiscal year 2002, EPA has been involved in a forward-
looking, results-oriented, targeted research effort to address 
the questions of when and how to test chemicals for hazard 
identification and dose response information. One objective of 
this research is to develop approaches, new approaches for 
prioritizing chemicals for subsequent screening and testing, 
and we would do this novel technologies that are derived from 
computational chemistry, and molecular biology, and systems 
biology. All of this would, in fact, decrease our use of--
reliance on tests on animals. These three scientific 
disciplines form the core of our computational toxicology 
research program.
    Our computational toxicology, or we call it comptox 
program, has begun to show promise to reduce the reliance on 
animal testing. For example, this past year, with the 
successful development of in vitro assay for the evaluation of 
the effects of chemicals on steroidogenesis, the committee that 
advises the Agency on the Endocrine Disruptors Screening 
Program recommended that validation work on the rat assay be 
halted, and that we pay full attention to this in vitro assay. 
This represents for the first time the substitution of an in 
vitro assay for one that uses animals by the Endocrine 
Disruptors Screening Program.
    The President's budget also includes $7 million for a water 
infrastructure research initiative. This effort will identify 
new and innovative approaches for managing the water, the 
Nation's water infrastructure, especially for upgrading and 
improving the performance of deteriorating wastewater 
collection systems and drinking water distribution systems. The 
U.S. Conference of Mayors, in its 2005 National City Water 
Survey, rated aging water resource infrastructure as a top 
priority. This is a widespread national problem small and large 
communities alike. A diverse set of innovative, technologically 
advanced, engineered solutions will build the Agency's multi-
tiered effort to address the Nation's aging water 
infrastructure.
    EPA shares the responsibility to support the President's 
top priority, the safety and security of the American people. 
ORD science plays a vital role in developing the means to 
mitigate the effects on human health and the environment in the 
aftermath of attacks using chemical, biological, or 
radiological weapons. Specific priorities include providing 
tools and training to help communities protect their water 
infrastructure, through the detection, containment, and 
decontamination of their water systems, the development and 
evaluation of decontamination and disposal methods for 
contaminated and decontaminated materials from the insides of 
buildings and from outdoors, the development and refinement of 
sampling and analytical methods for chemical, biological, and 
radiological contaminants in both air and water, and the 
preparation of risk assessment methods for both short-term and 
medium-term exposures from chemical, biological, or 
radiological contaminants.
    The President's fiscal year 2007 budget request for ORD 
continues this tradition of excellence by emphasizing the best 
available cutting edge science and technology, collaboration 
and innovation, with an orientation on results.
    Thank you for this opportunity to tell you about the 
exciting work that we carry out at ORD, and I will be happy to 
answer your questions about these or any other program areas.
    [The prepared statement of Dr. Gray follows:]

                  Prepared Statement of George M. Gray

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the Fiscal Year (FY) 2007 budget request for the 
Environmental Protection Agency (EPA). The President's FY 2007 budget 
request of $788.3 million for EPA science and technology reflects the 
Administration's strong commitment to carrying out EPA's mission to 
protect human health and the natural environment. The request 
demonstrates the President's continued commitment to providing the 
resources needed to address our nation's highest priorities, which 
include continued support for homeland security and protecting our 
environment while sustaining our economy's growth. This request 
includes $557.2 million for the Office of Research and Development 
(ORD) to continue the work of providing the sound science that informs 
the Agency's decisions.
    EPA shares in the responsibility for being good stewards of tax 
dollars. In keeping with the principles of good stewardship, the 
President has included $7.3 billion dollars to support the work of the 
Environmental Protection Agency and our partners in his budget. This 
budget fulfills presidential environmental commitments and maintains 
the goals laid out in EPA's strategic plan, while spending tax dollars 
more effectively.
    This budget reflects a continued focus on emerging issues, as well 
as on our body of base work. As we are confronted with new 
opportunities and new challenges, such as computational toxicology or 
the impacts of manufactured nanomaterials on human health, we make new 
or increased investments. In areas where the major science and 
technology questions have been answered and where additional spending 
would not be cost effective, we scale back or even cease work. The work 
at ORD laboratories, research centers, and offices across the country 
helps improve the quality of air, water, soil, and the way we use 
resources. Applied science at ORD builds our understanding of how to 
protect and enhance the relationship between humans and the Earth's 
ecosystems.
    As we prepare for tomorrow's environmental challenges, EPA will 
meet the President's charge by focusing on three principles. The first 
is results and accountability. The second principle is innovation and 
collaboration. The third principle is using the best available science 
to accelerate environmental protection. These three principles are 
consistent with the President's mandate to create a government that is 
citizen-centered, results-oriented, and market-based. The best 
available science principle is the one that I am focusing on today. The 
President and Administrator Johnson share my commitment to sound 
science.
    This focus on science is evident in additional funds in this year's 
budget for researching the impacts on human health of manufactured 
nanomaterials, enhancements to health hazard assessment, and expansion 
of the effective computational toxicology program. Two additional areas 
on which I'd like to focus on in my testimony are water infrastructure 
and EPA's homeland security responsibilities.
    But before I do, I would like to address how the President's FY 
2007 budget request continues to enable ORD to both develop and apply 
the latest scientific methods and provide the best available science to 
inform the Agency's, and others', environmental decision-making. One 
important way is by working with our partners within the Agency--the 
Program and Regional Offices--to ensure our research program is 
responsive to their policy needs. Another is to coordinate and thereby 
leverage our research efforts with other federal agencies through the 
Committee on Environmental and Natural Resources. Lastly, through our 
Science to Achieve Results (STAR) research, ORD draws upon the 
expertise in our colleges and universities in the environmental 
sciences, and through our fellowship programs, continues to develop 
that expertise.
    An example that combines all of these approaches is our 
computational toxicology program, which I will address in more detail 
later. By developing new methods to test the environmental performance 
of chemicals, this research effort draws upon the recent developments 
in the fields of genomics, to which our federal and private sector 
partners--academia and industry--contribute greatly, to address the 
policy needs of EPA's Office of Prevention, Pesticides, and Toxic 
Substances. Clearly, by taking advantage of all of the approaches 
above, ORD continues to make a significant contribution to our 
understanding of the environment, and the President's fiscal year 2007 
budget request will enable us to continue to make such important 
contributions.
    I believe that the fiscal year 2007 request is adequate to continue 
providing the sound science needed to address the Nation's critical 
environmental problems and risks.

FY 2007 President's Budget

Nanotechnology
    Nanotechnology, the manipulation of matter at the atomic and 
molecular scales where unique phenomena enable novel applications, is 
likely to have profound effects on the world economy and on our quality 
of life. EPA is optimistic about nanotechnology's potential to improve 
environmental monitoring, pollution control and remediation techniques. 
However, EPA is also mindful of our responsibility to consider 
nanotechnology's environmental and health implications, so that the 
American economy can safely realize the nanotechnology revolution.
    To meet this responsibility better, the President's Budget includes 
an increase of $4 million, which includes an additional $1 million from 
exploratory grants, for ORD to study the impacts of manufactured 
nanomaterials on human health and the environment and nanotechnology's 
potential beneficial environmental uses. Our research will be guided by 
an EPA white paper on nanotechnology currently undergoing external peer 
review and an interagency environmental and health research needs 
document being prepared under the National Nanotechnology Initiative. 
EPA's nanotechnology research has, to date, primarily been conducted 
through the Science to Achieve Results grants program. The President's 
FY 2007 investment in nanotechnology research at EPA will allow us to 
establish an in-house effort to complement our existing grants program. 
Together, these programs can help lay the scientific foundation for 
EPA's understanding of nanotechnology.
Enhancing Health Hazard Assessment
    One of the goals of the Administration is to enhance the 
transparency and inclusiveness of the chemical risk assessment process 
utilizing the Integrated Risk Information System (IRIS). IRIS is an 
Internet database containing information on human health effects that 
may result from exposure to various chemicals in the environment. IRIS 
was initially developed for EPA staff in response to a growing demand 
for consistent information on chemical substances for use in risk 
assessments, decision-making and regulatory activities. It has since 
grown into the premier national and international source for such 
qualitative and quantitative risk information. The information in IRIS 
is intended for those without extensive training in toxicology, but 
with some knowledge of health sciences.
    The heart of IRIS is its collection of health hazard assessments 
covering individual chemicals. These chemical assessments contain 
descriptive and quantitative information on hazard identification and 
dose-response information for both cancer and non-cancer effects. The 
benefits of the IRIS database lie principally in the quality of its 
health hazard assessments, the provision of quantitative risk 
information, and the consistency provided by a single database among 
the various clients for this information.
Computational Toxicology
    Since FY 2002, EPA has been involved in a forward looking, results-
oriented, targeted research effort to address the question of ``when 
and how'' to test chemicals for hazard identification and improve 
quantitative dose-response assessment. One objective of this research 
is to develop approaches for prioritizing chemicals for subsequent 
screening and testing using novel technologies derived from 
computational chemistry, molecular biology and systems biology, all 
while decreasing our use of tests on animals. Those three scientific 
disciplines form the core of our computational toxicology research 
program.
    In 2005, ORD established a National Center for Computational 
Toxicology (NCCT). Utilizing cutting-edge research techniques, NCCT 
scientists are providing leadership in efforts to improve understanding 
of the fate and transport of pollutants and of the toxicity and risks 
posed by environmental contaminants.
    Our computational toxicology (comptox) work has begun to show 
promise to reduce the reliance on animal toxicity testing. For example, 
this past year, with successful development of an in vitro assay for 
the evaluation of the effects of chemicals on steroidogenesis, the 
committee advising the Agency on the Endocrine Disruptors Screening 
Program (EDSP) recommended that validation work on the rat assay be 
halted, and that full attention be paid to the new in vitro assay. This 
represents the first substitution of an in vitro assay in place of an 
in vivo assay by the EDSP.
Water Infrastructure
    The President's budget request includes $7 million for a water 
infrastructure research initiative. This effort will identify new and 
innovative approaches for managing the Nation's water infrastructure, 
especially for upgrading and improving the performance of deteriorating 
wastewater collection systems and drinking water distribution systems. 
The U.S. Conference of Mayors in its 2005 National City Water Survey 
rated ``aging water resources infrastructure'' as the top priority. 
This is a widespread, national problem facing large and small 
communities alike. A diverse set of innovative, technologically 
advanced engineered solutions will build on the Agency's multi-tiered 
effort to address the Nation's aging water infrastructure.
Homeland Security
    EPA shares the responsibility to support the President's top 
priority: the safety and security of the American people. ORD science 
plays a vital role in developing the means to mitigate the effects on 
human health and the environment in the aftermath of attacks using 
chemical, biological, and radiological agents. Specific priorities 
include providing tools and training to help communities protect their 
water infrastructure through detection, containment, and 
decontamination in water systems; the development and evaluation of 
decontamination and disposal methods for contaminated and 
decontaminated materials from the inside of buildings and outdoors; 
development and refinement of sampling and analytical methods for 
chemical, biological, and radiological contaminants both in air and 
water; and the preparation of risk assessment methods for both short-
term and medium-term exposures from chemical, biological, and 
radiological contaminants.
    These priorities were developed using threat scenarios and informed 
scientific and technical judgment. A threat scenario includes a 
specific type of attack targeted against a situation or setting. As a 
result, EPA works with the Department of Homeland Security to evaluate 
thousands of possible combinations of facility types and methods and 
means of attack. Priority scenarios identified through this process are 
those that are considered more likely to happen than others or that are 
more likely to cause widespread or significant harm. EPA also uses 
informed scientific and technical judgment to help identify priorities. 
EPA solicits input from scientific and technical experts such as the 
National Academy of Sciences, and the Science Advisory Board, Agency 
decision-makers, and stakeholders such as the Department of Homeland 
Security, the Department of Defense, and information users--such as 
first responders--directly affected by a threat or attack. The results 
of both approaches are used to identify priorities and refine them as 
necessary over time.

Conclusion

    By uniquely combining human health and ecological research in one 
federal agency employing world-class research scientists, ORD has made, 
and will continue to make, significant contributions to developing a 
better understanding of environmental risks to both human health and 
ecosystems. The results of this research have consistently and 
effectively informed EPA's environmental decision-making as well as 
that of others, leading to environmental policies based on sound 
science at the federal, State, tribal and local levels.
    The President's FY 2007 budget request for ORD continues this 
tradition of excellence, by emphasizing the best available cutting-edge 
science and technology, collaboration and innovation, with an 
orientation on results.
    Thank you for this opportunity to tell you about the exciting work 
we conduct in ORD, especially in the areas of nanotechnology, the IRIS 
database, computational toxicology, water infrastructure and homeland 
security. These are but a few highlights from our portfolio of science 
and technology work. I am happy to answer your questions about these or 
any ORD matters.

                      Biography for George M. Gray

    On November 1, 2005, Dr. George Gray was sworn in to serve as the 
Assistant Administrator for the Office of Research and Development 
(ORD) at the U.S. Environmental Protection Agency. ORD is the 1,900-
person, $600 million science and technology arm of EPA. Dr. Gray was 
appointed to this position by President George W. Bush and confirmed--
by unanimous consent--by the U.S. Senate. EPA Administrator Stephen L. 
Johnson appointed Dr. Gray to serve as EPA Science Advisor on January 
24, 2006.
    The U.S. Environmental Protection Agency relies on sound science to 
safeguard both human health and the environment. ORD's leading-edge 
research helps provide the solid underpinning of science and technology 
for the Agency. ORD conducts research on ways to prevent pollution, 
protect human health, and reduce risk. The work at ORD laboratories, 
research centers, and offices across the country helps improve the 
quality of air, water, soil, and the way we use resources. Applied 
science at ORD builds our understanding of how to protect and enhance 
the relationship between humans and the ecosystems of Earth.
    Prior to joining EPA George was a member of the faculty of the 
Harvard School of Public Health and Executive Director of the Harvard 
Center for Risk Analysis. His research focused on the scientific basis 
of human health risk assessment, on methods for characterizing and 
communicating risks, and on identifying and evaluating risk/risk 
tradeoffs in public health protection. George professional service has 
included membership on the National Advisory Health Sciences Council of 
the National Institute of Environmental Health Sciences, Food and Drug 
Administration Advisory Committees and a National Academy of Science/
Institute of Medicine panel along with active participation in the 
Society for Risk Analysis and the Society of Toxicology. George has a 
B.S. degree in biology from the University of Michigan and M.S. and 
Ph.D. degrees in toxicology from the University of Rochester.
    He and his wife, Ann, and their two children make their home in 
McLean, Virginia.
    ORD's Mission is to perform research and development to identify, 
understand, and solve current and future environmental problems; to 
provide responsive technical support to EPA's mission; integrate the 
work of ORD's scientific partners (other agencies, nations, private 
sector organizations, and academia); and to provide leadership in 
addressing emerging environmental issues and in advancing the science 
and technology of risk assessment and risk management.

    Chairman Ehlers. Thank you very much. Dr. Morgan.

STATEMENT OF DR. M. GRANGER MORGAN, CHAIRMAN, SCIENCE ADVISORY 
      BOARD, UNITED STATES ENVIRONMENTAL PROTECTION AGENCY

    Dr. Morgan. Thank you, Mr. Chairman and Mr. Wu. I am 
Granger Morgan, and I chair EPA's Science Advisory Board. I am 
joined today by two fellow members of the Board, Dr. James 
Johnson, who incidentally also chairs the Board of Scientific 
Counselors, the BOSC of the Office of Research and Development, 
and Dr. Gene Matanoski, who is a former Chair of the Committee.
    Between 2004 and the proposed 2007 budget, the inflation 
adjusted budget for EPA's Office of Research and Development 
has declined by just over 16 percent, and yet, the 
environmental challenges we face have grown, and EPA will face 
increasingly complex and difficult science challenges over the 
coming decades.
    We all want environmental decision-making to be based on 
sound science. However, our nation is not investing adequately 
in producing that science.
    Now, I know a number of people who think that this lack of 
investment reflects a hope that if the science isn't there, 
somehow, additional regulation will not follow. A much more 
likely outcome is that if we don't do the needed research, we 
will simply get poorer regulation, which could end up costing 
the Nation a great deal more in the long run.
    In my view, we all need to work harder on explaining the 
importance of investing in R&D at EPA if we want to assure that 
America will enjoy a clean, safe, healthy and sustainable 
environment in the years to come.
    Now, you have specifically asked if the Agency's overall 
level of science and technology funding is appropriate, and 
whether its research priorities are adequately balanced. I have 
elaborated in the written testimony that I have submitted, but 
the short answer is no.
    You have also asked what impacts the proposed budget 
reductions may have on ORD's ability to use the latest 
scientific methods and information in its regulatory decisions, 
and to build strong ties to the external scientific research 
community. Again, while I have elaborated in the written 
testimony, the short answer is these impacts will be serious, 
and they will be negative.
    In my written remarks, I have addressed three issues. The 
first is the need for a government-wide view of environmental 
research and development. Before us on the Science Advisory 
Board, or for that matter, you and the Congress, can hope to 
determine if the U.S. has a balanced and comprehensive national 
strategy for environmental research, we need a clearer picture 
of what is being done. I urge the committee to work with the 
executive and independent agencies to realize the development 
of such a comprehensive description of all of our nation's 
environmental research.
    In my written testimony, I then offer comments on proposed 
changes in EPA's research programs in mercury, in ecology and 
ecosystems, in human health, and in global change and 
sustainability. I then respond to your questions about 
appropriate science priorities and needs for homeland security. 
While all of us on the SAB agree that this is an important area 
of national need, we are concerned that it not be met at the 
cost of serious erosion in the support of the Agency's core 
research needs in health and environmental research.
    I also offer two other words of caution. First, there is 
some risk that the Agency's homeland security work will focus 
too much at the level of individual devices and subsystems 
without first understanding at a broad level such key issues as 
how effective alternative approaches can hope to be in 
providing needed protection at an affordable cost. And second, 
we are concerned that the current programs are not sufficiently 
informed by the behavioral and social sciences.
    I end my written remarks with a discussion of the 
importance of longer-term, more fundamental research at EPA. In 
our meetings with Agency research managers, we were deeply 
troubled when we were told that the basic, or core portions of 
ORD's research budget have shrunk from roughly 40 percent to 25 
percent of current research investments. It is difficult to 
know exactly what those numbers are, but the reduction is quite 
clear. Looking back at the analysis that the SAB has done of 
EPA's science and research budgets over the past several years, 
the SAB has become convinced that the Agency is in danger of 
losing core scientific expertise in both conventional and 
emerging environmental issues.
    I close my written remarks by urging the committee to 
restore the proposed cuts in the STAR Doctoral Fellowship 
program.
    Thank you again for the opportunity to testify about EPA's 
science and research budget, and my colleagues and I would be 
pleased to try to answer your questions.
    [The prepared statement of Dr. Morgan follows:]

                Prepared Statement of M. Granger Morgan

    Good morning Mr. Chairman and Members of the Subcommittee on 
Environment, Technology, and Standards. My name is Granger Morgan. I 
chair EPA's Science Advisory Board (SAB or Board). I am a faculty 
member at Carnegie Mellon University where I am a University Professor, 
hold the Lord Chaired Professorship in Engineering, and am Head of the 
Department of Engineering and Public Policy, a department in the 
Engineering College.
    Thank you for this opportunity to present the SAB's views about the 
Agency's 2007 Science and Research Budget Request. The Board is 
completing approval of its final report, and with the permission of the 
Chairman, we will submit that report for the record.
    Over the past few years, the Board has been working with EPA to 
review the Agency's science and research programs and budget on a 
systematic and ongoing basis. The Agency now presents that information 
to the Board in ways that correlate with EPA's Strategic Plan.
    Between 2004 and the proposal for 2007, the inflation adjusted\1\ 
budget for EPA's Office of Research and Development has declined by 
just over 16 percent. Yet, the environmental challenges that face the 
Agency have grown and EPA will face increasingly complex and difficult 
science challenges over the coming decades. It will also face 
opportunities to improve our environmental and international 
competitiveness with new technologies--but, to paraphrase the 
microbiologist Louis Pasteur, opportunity favors those who are 
prepared.
---------------------------------------------------------------------------
    \1\ Computed using the NASA Gross Domestic Product Deflator 
Inflation Calculator, available at http://cost.jsc.nasa.gov/
inflateGDP.html
---------------------------------------------------------------------------
    We all want environmental decision-making to be based on sound 
science. However, our nation is not investing adequately in producing 
that sound science.
    I know a number of people who argue that this lack of investment 
reflects a hope that if the science is not there, somehow additional 
regulation will not follow. A much more likely outcome is that, if we 
don't do the needed research we will simply get poorer regulation--
which could end up costing the Nation a great deal more in the long 
run.
    In my view we all need to work harder on explaining the importance 
of investing in R&D at EPA if we want to ensure that America will enjoy 
a clean, safe, healthy and sustainable environment in the years to 
come.
    You have specifically asked if the Agency's overall level of 
Science and Technology funding is appropriate and whether its research 
priorities are adequately balanced among core research, mission-driven 
research, emerging issues, and homeland security. I will elaborate 
below, but the short answer is no.
    You have also asked what impacts the proposed budget reduction may 
have on the Office of Research and Development's ability to use the 
latest scientific methods and information in its regulatory decisions, 
and to build strong ties to the external scientific research community 
and foster graduate student work in the environmental sciences. Again, 
while I'll elaborate below, the short answer is these impacts will be 
serious and negative.
    In the discussion below I elaborate on these, and related points, 
in three contexts:

        1.  The need for government-wide, systematic tracking of 
        environmental research;

        2.  Some specific aspects of EPA's proposed 2007 research 
        budget; and

        3.  The critical problem of continuing reductions in long-term, 
        more fundamental environmental research at EPA.

1.  Need for a Government-wide View of Environmental Research and 
Development

    EPA is not the only federal agency that collects environmental data 
or performs environmental research. The Departments of Agriculture, 
Energy, Homeland Security, and Interior, as well as the CDC, NASA, 
NIEHS, NIH, NSF, USGS, and a number of other federal entities all make 
significant contributions. Some of these organizations work on topics 
that may sound similar; in many cases the details turn out to be 
different in important ways.
    In many specific areas of research, there are examples of excellent 
coordination and cooperation between some of these programs.
    But today, across the federal system as a whole, it is virtually 
impossible to develop an informed understanding of what research is 
being done; where it is being done; where there are duplications; and 
where there are critical gaps. A simple list of topics is not 
sufficient. Just because the same noun appears in two agency lists of 
research topics does not mean that they are doing the same thing, or 
that there is duplication.
    Before we on the Science Advisory Board, or you in the Congress, 
can hope to determine if the U.S. has a balanced and comprehensive 
national strategy for environmental research, we need a clear picture 
of what is being done in the form of concise substantive descriptions 
of all the environmental research programs across the federal system. 
Conceivably, things could be better than they look from the isolated 
EPA's budgetary perspective. I suspect that they are worse. However, we 
need a comprehensive picture.
    I urge the Committee to work with the executive and independent 
agencies to realize the development of such a comprehensive description 
of all our nation's environmental research. Such a summary would assist 
everyone involved in ensuring: that needed federal environmental 
research is being done efficiently; that the different federal agencies 
involved are sharing information; and that the results are readily 
accessible to the scientific community, the public, and environmental 
decision-makers.

2.  Comments on Several Proposed Changes in Individual EPA Programs

    Now I'd like to offer four examples of how the proposed cuts to the 
EPA 2007 research budget will adversely impact the Agency's mission to 
protect human health and the environment as well as offer some brief 
comments in response to you question about the expansion of the 
Agencies program related to Homeland Security.
    First, I will address mercury research. While some of the mercury 
in our food and water comes from power plants and other human 
activities, much comes from natural sources or is carried across the 
Pacific from natural and anthropogenic sources in Asia. On a global 
scale, science cannot yet accurately tell us where all the mercury in 
the U.S. comes from, where it goes, or in what chemical forms it 
exists. If we are going to be able to assess the adequacy and 
effectiveness of the costly mercury controls that EPA regulation is 
imposing on U.S. industry, we need to understand those planetary flows. 
However, last year's EPA research budget for mercury was reduced 
approximately 35 percent to $3.4 million. This year's budget proposes 
only a slight increase. Funding at these levels is too small to even 
adequately address the issues that EPA-ORD has been addressing, let 
alone to allow any work on the key problem of planetary flows of 
mercury.
    A second important and undervalued area of research, that the Board 
is especially concerned about is Ecology and Ecosystems Research which 
has been systematically cut for several years. While we all value and 
marvel at the beauty and complexity of natural ecosystems, it is easy 
to forget that every year these systems also provide us with billions 
of dollars worth of services that are critical to our way of life.
    As an example, the salt-water marshes of the Gulf Coast provide 
more than wildlife habitat. They also provide protection against 
erosion, and they buffer the effect of storms on coastal lands. How are 
we to protect such vulnerable natural systems as the salt-water marshes 
of the Gulf Coast, the Great Lakes, the Chesapeake Bay, the Mississippi 
River Basin, and countless other smaller natural systems in every state 
in the country, if we don't adequately invest in understanding them?
    The $79.2 million for ecological research in the proposed 2007 
amounts to just 15 percent of the overall ORD research budget. For well 
over a decade the Board has called on both the Agency and the Congress 
to revitalize, raise the profile, and increase the funding of 
ecological research at EPA. Since 2004, the Board has watched budgetary 
support for ecological research decline by 26 percent. This is not the 
route to a clean and healthy future for either us, or for our air, land 
and waters.
    Third, I will say a word about research in human health. The SAB 
was delighted to see a proposed increase of just under $3 million in 
Computational Toxicology. This work holds great potential to streamline 
the process of assessing the safety of chemicals, speed approval of new 
products, and in so doing, enhance the productivity and competitiveness 
of American industry.
    However, to make effective use of these powerful new computational 
tools, researchers also need data to put in the computer models. The 
Board is deeply troubled by proposed cuts in human health research 
areas that are needed to provide the data necessary for computational 
toxicology to be effective. These cuts include a proposed 13 percent 
reduction for work on endocrine disruptors, a proposed 14 percent 
reduction for pesticides, and an increase of only three percent for 
other core programs in human health research.
    Finally, the Board is concerned about research in Global Change and 
Sustainability. For each of the past two years, research support for 
global change has declined by roughly one million dollars. The current 
budget proposal of $17.5 million will only allow the agency to meet its 
impact assessment obligations under the government-wide Climate Change 
Science Program. The Agency will be forced to terminate, in midstream, 
research vital to understanding ongoing changes in temperature, 
precipitation, flooding, snow pack, and other factors will affect water 
quality across the U.S. To our knowledge, no other federal agency is 
supporting such work on a national scale.
    Following $9.6 million dollar reduction in 2006, sustainability 
research is slated for further reduction of $4.4 million in 2007. These 
reductions are coupled with the termination of the Superfund Innovative 
Technology Evaluation Program and Environmental Technology Validation 
Program. This means that the Agency will lose much of its ability to 
test and verify new environmental technologies. This loss harms 
American industry's competitive position for environmental technology 
in world markets, at a time when other nations treat these technologies 
as opportunities.
    I turn now to your questions about appropriate science priorities 
and needs for Homeland Security. The proposed 2007 budget calls for an 
increase of almost 25 percent to $39.5 million for Homeland Security 
research in ORD, and an increase of just under 30 percent to $58.1 
million for work in other parts of the Agency. These increases will 
support research and other activities related to increased preparedness 
and better response for water security, analytical methods, 
decontamination, clean-up goals, radiation monitoring and biodefense. 
Clearly improving our ability to deal with terrorist and other threats 
is a critical national need and the SAB has been most favorably 
impressed by the dedication and hard work of the staff addressing these 
important national priorities. However, while all of us on the SAB 
agree that this is an important area of national need, we are concerned 
that it not be met through serious erosion of support for the Agency's 
core research needs in health and environmental research.
    I would like to offer two other cautions regarding the Agency's 
current research program in homeland security research. First, there is 
some risk of focusing too much at the level of individual devices and 
sub-systems, without first understanding at a broad level such key 
issues as how effective alternative approaches can hope to be in 
providing needed protection, and whether the Nation can afford them. 
Second, we are concerned that current programs are not sufficiently 
informed by the behavioral and social sciences, which are crucial to 
effectively organizing the complex systems needed to manage these 
technologies and communicating research results and risk to the general 
public.
    You also asked about sole reliance on Science and Technology 
funding for the WaterSentinel pilot program expansion, and if EPA has 
adequate plans for transitioning WaterSentinel to an operational 
program. The SAB understands the need for WaterSentinel, but EPA's 
strategy for allocating resources to this program is unclear. Science 
and Technology funding is probably appropriate for developing the 
scientific aspects of WaterSentinel, but other aspects of the program 
appear to be operational. Accordingly, the SAB believes that 
operational aspects of WaterSentinel should be funded by appropriate 
operational funds. The SAB Panel that reviewed WaterSentinel 
recommended development of a plan to transition WaterSentinel from 
research and development to and operational program. The SAB is 
concerned that WaterSentinel funding comes at the expense of the 
Agency's other responsibilities.

3.  Longer-term More Fundamental Research

    EPA is a mission-oriented agency, charged with assuring that 
America enjoys, and will continue to enjoy, a clean and healthy 
environment. Earlier I paraphrased Louis Pasteur. Don Stokes, the 
former dean at Princeton's Woodrow Wilson School wrote a wonderful 
little book\2\ that argues that research cannot simply be sorted out 
along a line between basic and applied. Some important real world 
problems, such as those that lead Pasteur to understand how to preserve 
milk, can only be addressed by doing fundamental research that is 
motivated by real-world needs. Many environmental problems fall into 
this category--what Stokes termed ``Pasteur's quadrant.'' Much of the 
knowledge that is needed to assure continued success in EPA's mission 
requires research of this kind--research which is not being done 
anywhere else across the federal system.
---------------------------------------------------------------------------
    \2\ Donald E. Stokes, Pasteur's Quadrant: Basic Science and 
Technological Innovation, Brookings Institution Press, 180 pp., 1997.
---------------------------------------------------------------------------
    In our meetings with agency research managers, we were deeply 
troubled when we were told that the basic or ``core'' portions of ORD's 
research budget have shrunk from roughly 40 percent to 25 percent of 
current research investments. Environmental issues are complex, and 
often subtle. If EPA does not continue to invest in a significant 
amount of basic environmental science, we will likely find ourselves 
making costly regulatory mistakes in the future. We also run the risk 
of paralyzing innovative industries, like nanotechnology, uncertain 
about the regulatory rules that they will face.
    The SAB is especially troubled by the ongoing difficulty that EPA 
has had with the application of the OMB Performance Assessment Review 
Tool or ``PART'' process. My own view is that both the agency and the 
OMB need to work harder to resolve this issue, especially in the 
context of ecosystem research. On the one hand, OMB needs to recognize 
the need for a portion of EPA's research to be fairly fundamental in 
nature. As I have argued above, not all EPA research has immediate 
short-term applications--nor should it have. Long-term investments in 
developing basic understanding of environmental and ecological science 
are very important if we are to achieve sensible and efficient 
environmental protection. At the same time, EPA needs to do a better 
job of refining and communicating several of its research programs, 
especially those in ecosystem research, a topic whose importance has 
been stressed by both the SAB and National Academy of Sciences. Simply 
continuing to cut the budget is not a viable strategy for achieving 
future improvement.
    Looking back at the analyses that the SAB has done of EPA's science 
and research budgets over the past several years, the SAB has become 
convinced that the Agency is in danger of losing core scientific 
expertise in both conventional and emerging environmental issues. A 
number of the agency's research programs are in need of major 
rejuvenation and modernization, but this is almost impossible in the 
face of ever shrinking resources. On top of this, a significant number 
of retirements is anticipated over the coming decade. If proposed cuts 
in the STAR Doctoral Fellowship program are not restored, where will 
the next generation of U.S. environmental scientists come from?
    Thank you again for the opportunity to testify about EPA's science 
and research budget request. My colleagues and I would be pleased to 
answer your questions.

                    Biography for M. Granger Morgan

    Dr. M. Granger Morgan is University Professor and Head of the 
Department of Engineering and Public Policy at Carnegie Mellon 
University where he is also Lord Chair Professor in Engineering, and is 
a Professor in the Department of Electrical and Computer Engineering 
and in the H. John Heinz III School of Public Policy and Management. He 
holds a B.A. from Harvard College (1963) where he concentrated in 
physics, an M.S. in astronomy and space science from Cornell (1965), 
and a ah.D. from the department of applied physics and information 
sciences at the University of California at San Diego (1969).
    Dr. Morgan's research addresses problems in science, technology, 
and public policy. Much of it has involved the development and 
demonstration of methods to characterize and treat uncertainty in 
quantitative policy analysis. He works on risk analysis, management and 
communication; on problems in the integrated assessment of global 
change; on energy systems, focused particularly on electric power; on 
problems in technology and domestic security; on improving health, 
safety, and environmental regulation; and on several other topics in 
technology and public policy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Ehlers. Thank you. Dr. Langenberg.

STATEMENT OF DR. DONALD N. LANGENBERG, VICE CHAIRMAN, NATIONAL 
            COUNCIL FOR SCIENCE AND THE ENVIRONMENT

    Dr. Langenberg. Thank you, Mr. Chairman, Mr. Wu, and thank 
you for the opportunity to testify here on behalf of the 
National Council for Science and the Environment.
    That organization is dedicated to proving the scientific 
basis for environmental decision-making, and it does not take 
positions on environmental issues, per se. You have my written 
testimony. I would like to focus my oral remarks on several 
broad brush, big picture topics that help me understand the 
context for today's hearing.
    It is becoming obvious to most Americans, not just citizens 
of Louisiana and Kansas, that environmental issues are becoming 
increasingly important all societal levels, from local, through 
state and national to global. Our leaders are being told do 
something. What to do? Well, when we confront that question, we 
encounter a reality once described by the biologist E. O. 
Wilson, who said, and I quote: ``Men who would rather believe 
than know.'' I find that a rather ominous truth, especially at 
a time when a recent survey shows that about a quarter of the 
American population still believes that the Sun orbits around 
the Earth.
    That being the case, what do decision-makers like you do 
when confronted with an environmental issue? And my answer is 
make policy, make your decisions based on a thorough 
understanding of the best available scientific knowledge that 
is relevant to the issue. It is easier said than done for 
environmental issues, which are extremely systemic, 
complicated, and multidisciplinary. Although the scientific 
knowledgebase is growing, it remains full of gaps and 
unanswered questions, but that means that we have to do all we 
can to support those scientists who can enlarge the 
knowledgebase, and that also means that we must attend to the 
development of the next generation of scientists, who can 
continue to do that, which brings me to EPA.
    In my view, EPA is a mission agency, whose primary 
functions are policy development and regulation. To accomplish 
that mission properly, EPA must base its actions on sound 
scientific knowledge, and to do that, it needs to contribute to 
the scientific knowledgebase, particularly by supporting 
research that is directly and immediately relevant to the 
policy and regulatory issues that it confronts.
    EPA's Office of Research and Development can and does make 
its contribution to the scientific knowledgebase by supporting 
both intramural and extramural research, and in that, it 
parallels the work of other mission agencies, like Health and 
Human Services, Energy, and NASA.
    The extramural research effort of EPA's STAR, Science to 
Achieve Results, is particularly important, because it not only 
helps expand the relevant scientific knowledgebase, but it 
gives EPA direct access to the expertise and advice of some of 
the leading--Nation's leading environmental scientists, most of 
whom work in research universities. They have another unique 
and very important function. Those universities are also the 
breeding grounds for the next generation of environmental 
scientists, so STAR research projects and the STAR Fellowship 
Program, to help ensure that tomorrow's policy decisions will 
continue to well informed by the best available science.
    Is STAR any good? Well, the National Academy of Sciences 
addressed that question in detail, and gave STAR high marks. As 
far as I can tell, among federal programs, STAR seems to have 
accomplished its objectives in a manner that should make it a 
``star'' among federal programs, but yet, its funding has been 
declining in recent years, and that is, frankly, not the 
responsible response this citizen would have expected from his 
government when confronted with a burgeoning set of 
environmental challenges. And let me remind you that those 
challenges are not confined to the immediate present, like 
Katrina and tornados in Kansas. They include the possibility of 
an avian influenza pandemic, and the possibility of the 
inundation of my Maryland Eastern shore home if the Greenland 
ice sheet melts.
    Let me answer the specific questions that the staff has 
asked. What are the most important strengths and weaknesses of 
EPA's proposed S&T budget? The most important strength, I 
think, is that it exists at all, and the most important 
weakness is that it is substantially inadequate to support EPA 
meeting its present and looming future challenges. What impact 
are the recent proposed reductions having on the ORD's ability 
to--and to provide several things that are relevant. My answer 
is, so far as I know, ORD continues to do a creditable job with 
the resources that it has, but in my opinion, those resources 
are substantially inadequate to enable EPA to respond 
responsibly to the challenges it faces today, and the greater 
challenges it will face in the near future.
    I would refer you to the conclusion of my written testimony 
for some recommendations from NCSE about restoring some of the 
declines in various aspects of ORD and STAR. I understand, Mr. 
Chairman, Mr. Wu, that you can accomplish only what is 
financially and politically feasible at this moment, but of all 
the issues that our government faces, environmental issues are 
surely the longest-term.
    I think I can assure you that our children and our 
grandchildren will have to deal with them in whatever forms 
they may take in the decades and centuries to come, and I think 
it is our duty and obligation to do what we can today to make 
their tasks easier tomorrow.
    Thank you very much for the opportunity to be here.
    [The prepared statement of Dr. Langenberg follows:]

               Prepared Statement of Donald N. Langenberg

Summary

    In order to fulfill its mission, EPA needs increased investments in 
both its intramural and extramural science programs. The National 
Council for Science and the Environment (NCSE) urges Congress to 
appropriate a minimum of $700 million for EPA's Office of Research and 
Development (bringing it back to FY 2004 levels), including at least 
$150 million for EPA's Science to Achieve Results (STAR) research 
grants program and $20 million for EPA's STAR graduate fellowship 
program. We recommend a total of $900 million for EPA's Science and 
Technology account. NCSE also urges Congress to restore full funding 
for the Office of Environmental Education at a level of at least $10 
million.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decision-making. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decision-making but does not 
take positions on environmental issues themselves.

Introduction

    Mr. Chairman, thank you for the opportunity to testify at this 
important hearing on science and technology at the Environmental 
Protection Agency (EPA). My name is Don Langenberg. I am testifying in 
my capacity as Vice Chair of the National Council for Science and the 
Environment (NCSE). I am also Chancellor Emeritus of the University 
System of Maryland and Professor of Professor of Physics and Electrical 
Engineering at the University of Maryland. I bring several perspectives 
to this hearing. I have served as Deputy Director and Acting Director 
of the National Science Foundation (NSF), President of the American 
Association for the Advancement of Science (AAAS), President of the 
American Physical Society (APS), and Chairman of the Executive 
Committee of the National Association of State Universities and Land 
Grant Colleges (NASULGC).
    In my capacity as Chancellor of the University System of Maryland, 
I was a leader of an institution that receives large amounts of federal 
funding for research and education. In my capacity as Deputy Director 
and Acting Director of the National Science Foundation, I was a leader 
of an institution that provides a significant fraction of the total 
federal investment in research and education at our nation's 
universities. I am both a scientist and a science educator. From 2002-
2004, I served as Regents' Professor of Education at the University of 
Maryland.
    I am a physicist by training, but I am not here to discuss the 
physical sciences. Just as Harold Varmus, the eminent biologist and 
former Director of the National Institutes of Health, made a strong 
case for the need for greater investments in the physical sciences, I 
am a physicist who is here to discuss the importance of greater 
investments in environmental research and education.

Environmental Science and Decision-making

    The call for decisions, environmental and otherwise, to be made on 
the basis of science is almost a mantra used across the political 
spectrum. Yet, behind the rhetoric, a simple truth remains. Without 
investment in science and in scientists, there can be no science-based 
decision-making.
    Despite this statement of the obvious, many federal departments and 
agencies and those in Congress who fund them try to get environmental 
decision-making on the cheap. In real dollar terms, EPA's funding of 
science is nearly unchanged since 1990 (Figure 1). During this time, 
the complexity of the challenges has increased many-fold. Science has 
helped us to make great advances with the local issues of point-source 
pollution. The problems faced by EPA, our nation and our planet today 
encompass local, regional, national and even global scales.
    EPA's current list of high priority research areas includes:

        <bullet>  Human Health

        <bullet>  Particulate Matter

        <bullet>  Drinking Water

        <bullet>  Clean Water

        <bullet>  Global Change

        <bullet>  Endocrine Disruptors

        <bullet>  Ecological Risk

        <bullet>  Pollution Prevention

        <bullet>  Homeland Security

    Half of these issues were largely unknown 25 years ago, yet the 
amount of available funding is largely unchanged.
    A research budget of less than $600 million for an agency dealing 
with these challenges is simply unacceptable. In contrast, the National 
Institutes of Health (NIH) receives nearly $30 billion (50 times more 
than EPA research). Yet we increasingly understand the connection 
between environmental quality and human health. For example, reducing 
methane emissions by 20 percent could prevent 370,000 deaths worldwide 
between 2010 and 2030, say Princeton University researchers in 
Proceedings of the National Academy of Sciences last week (March 6, 
2007).
    EPA's strategic plan calls for science-based decision-making, but 
it's not possible to achieve this goal if the agency's capacity to 
conduct science is continually reduced. EPA's strategic plan for 2003-
2008 says, ``EPA has identified reliance on sound science and credible 
data among the guiding principles we will follow to fulfill our mission 
to protect human health and the environment.'' EPA needs to reverse the 
decline in its capacity to conduct science in order to fulfill its 
mission.

EPA's proposed science budget

    Under the President's FY 2007 budget, EPA's overall budget would 
fall $310 million or 4.1 percent to $7.3 billion, after a similar cut 
in 2006. EPA's R&D portfolio of $557 million would suffer a $37.5 
million (six percent cut), after a similar cut in 2006. Funding for 
most EPA research areas would decline, with the exception of homeland 
security R&D. EPA's R&D funding would fall to its lowest level in 
almost two decades in real terms (Figure 1). If EPA's FY 2007 budget 
proposal were enacted, the agency's Science and Technology (S&T) 
funding will have declined by $71 million (12 percent) since FY 2004 
and the Office of Research and Development budget will have declined by 
$90 million (14 percent) during the same period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A healthy research program depends on having sufficient resources 
to:

        a.  keep up with and use the newest scientific methods,

        b.  provide the most up-to-date scientific information for the 
        agency's regulatory decisions, and

        c.  build and maintain strong ties with the external research 
        community and foster graduate student work in the environmental 
        sciences.

    Unfortunately EPA's research program is in a chronically unhealthy 
state. Despite major successful reforms in response to criticisms 
leveled in the 1980s and early 1990s, EPA's ability to garner the best 
science for its decision-making has been hamstrung by a severe lack of 
resources. This is particularly vexing given the desire of many policy-
makers to move away from a ``command and control model'' to a more 
flexible market-based approach to environmental performance. A market-
based approach will only succeed if all participants have access to 
high quality science-based information on which to make their 
decisions. Additional science is needed to develop metrics of success 
and to monitor progress toward desired outcomes.
    Funding for EPA's S&T account is projected to fall in 2008, 2009, 
and 2010 before rebounding slightly in 2011. After adjusting for 
inflation, EPA R&D could fall a further 16 percent over the next five 
years. Even if Congress adds to the Administration's request during the 
appropriations process, congressional add-ons may end up going to 
earmarked projects rather than to boost core EPA research programs, 
leaving most EPA research on a downward path with further cuts to come. 
This situation is unsustainable and should be unacceptable to this 
committee.

EPA's Extramural Science and Education Programs

    EPA created the extramural Science to Achieve Results (STAR) 
program as part of a set of reforms to EPA science proposed by the 
National Academy of Sciences in the 1990s. STAR provides EPA an 
opportunity to better take advantage of the intellectual and scientific 
resources of the academic community and apply these resources to the 
challenges faced by EPA.
    The STAR program has been widely praised. The National Academies 
issued a laudatory report, The Measure of STAR, which concludes that 
the program supports excellent science that is directly relevant to the 
agency's mission. According to the report, the STAR program has 
``yielded significant new findings and knowledge critical for 
regulatory decision-making.'' The report says, ``The program has 
established and maintains a high degree of scientific excellence.'' It 
also concludes, ``The STAR program funds important research that is not 
conducted or funded by other agencies. The STAR program has also made 
commendable efforts to leverage funds through establishment of research 
partnerships with other agencies and organizations.''
    The EPA STAR research program compares favorably with programs at 
other science agencies. According to the National Academies report, 
``The STAR program has developed a grant-award process that compares 
favorably with and in some ways exceeds that in place at other agencies 
that have extramural research programs, such as the National Science 
Foundation and the National Institute of Environmental Health 
Sciences.''
    The STAR research grants program expands the scientific expertise 
available to EPA by awarding competitive grants to universities and 
independent institutions, to investigate scientific questions of 
particular relevance to the agency's mission. The National Academies 
report says, ``The STAR program should continue to be an important part 
of EPA's research program.''
    From the standpoint of a university administrator, our ability to 
set priorities is greatly influenced by patterns of federal funding. 
Where resources are made available, academic research will flourish and 
new discoveries will be made. This is happening in the biomedical 
sciences and society is reaping the benefits of increased funding for 
biomedical research. In areas such as environmental science, even 
though there is great interest among student and faculty, it is hard 
for us to establish new programs and hire new faculty and take on 
additional students if we know that funding is not likely to be 
available. STAR grants that support research centers and individual 
scientists allow universities to make their own investments with some 
assurance of concurrent federal support.
    Research centers funded by the STAR program at universities 
affiliated with NCSE are making scientific breakthroughs on topics 
including:

        <bullet>  remediation of mine waste sites

        <bullet>  microbial risk assessment

        <bullet>  remediation of volatile organic compounds in 
        groundwater and soil

        <bullet>  air quality--reducing the health effects of 
        particulate matter and aerosols

        <bullet>  assessment of aquatic resources

        <bullet>  children's environmental health and disease 
        prevention (several centers).

    Funding for the STAR program has been cut repeatedly over the past 
several years. The FY 2007 request for the STAR programs is $63 
million, which is 40 percent below the FY 2004 request of $104.7 
million. If the proposal is enacted, STAR will have been cut by $20 
million (24 percent) since FY 2004. NCSE proposes that the STAR 
research budget be increased to $150 million, which would allow 
expansion of areas and scientists supported and would send a signal 
that Congress is serious about science for environmental decision-
making.
    To ensure a strong supply of future environmental scientists and 
engineers, EPA created the STAR Fellowship program. As you know, there 
is considerable concern about the retirements of the baby boom 
generation and the need to replace the scientific and technical skills 
of the federal, State and private work force. The STAR fellowship 
program is the only federal program aimed specifically at students 
pursuing advanced degrees in environmental sciences. According to the 
National Academies report, ``The STAR fellowship program is a valuable 
mechanism for enabling a continuing supply of graduate students in 
environmental sciences and engineering to help build a stronger 
scientific foundation for the Nation's environmental research and 
management efforts.''
    The STAR Fellowship program has also been repeatedly proposed for 
budget cuts by the Administration, only to be restored each year by 
Congress. The President's budget request has again has proposed deep 
cuts in the STAR graduate fellowship program. The budget request would 
have cut funding for the STAR graduate fellowship program by 50 percent 
in FY 2004 and by 100 percent in FY 2003. Congress restored full 
funding for the EPA STAR graduate fellowship program in both years. The 
FY 2007 proposed budget would be a $3.4 million (26 percent) reduction 
in funding for graduate fellowships. As you have noted in the 
Committee's Views and Estimates on the budget, this is ``one of the 
most troubling decreases.'' You state that ``the fellowship program 
should be funded at $10 million, the level restored by Congress in each 
year beginning with FY03.''
    The STAR fellowship program is highly competitive, with only seven 
percent of applicants being awarded fellowships. The current level of 
funding is insufficient to allow all students whose applications are 
rated as excellent to receive fellowships and it is insufficient to 
meet national needs for a scientifically trained workforce. Based on 
the experience of NCSE staff as reviewers of the STAR fellowship 
applications, we recommend doubling the funding for STAR fellowships to 
$20 million, which can be accomplished without any decrease in the 
quality of the awardees.

Office of Environmental Education

    The FY 2007 budget request once again proposes no funding for the 
EPA Office of Environmental Education. Since 2003, the Administration 
has tried to zero out this office, which support the programs mandated 
by the National Environmental Education and Training Act, programs 
administered by this office. NCSE strongly encourages Congress to 
restore full funding of at least $10 million. These programs provide 
national leadership for environmental education at the local, State, 
national and international levels, encourage careers related to the 
environment, and leverage non-federal investment in environmental 
education and training programs.

Conclusion

    In order to fulfill its mission, EPA needs increased investments in 
both its intramural and extramural science programs. The National 
Council for Science and the Environment urges Congress to appropriate a 
minimum of $700 million for EPA's Office of Research and Development 
(bringing it back to FY 2004 levels), including at least $150 million 
for EPA's Science to Achieve Results (STAR) research grants program and 
$20 million for EPA's STAR graduate fellowship program. We recommend a 
total of $900 million for EPA's Science and Technology account. This 
would include the $62 million proposed transfer from the Environmental 
Programs and Management Account. NCSE also urges Congress to restore 
full funding for the Office of Environmental Education at a level of at 
least $10 million. Even these levels of funding would, for the most 
part, bring EPA science back to its level in FY 2004. We hope that in 
future years, EPA's science budget will grow to better match our 
national needs.
    In the case of EPA, there is a strong relationship between input to 
environmental research and education and output in terms of 
environmental protection. If the Nation wants more effective and 
efficient environmental protection, we need to make the upfront 
investment in science. It really is the ounce of prevention that is 
worth tons of cure.

                   Biography for Donald N. Langenberg

    Donald N. Langenberg was educated at Iowa State University (B.S.), 
the University of California, Los Angeles (M.S.), and the University of 
California, Berkeley (Ph.D.). All his earned degrees are in physics. He 
also holds honorary degrees from the University of Pennsylvania (M.A. 
and D.Sc.) and from the State University of New York (D.Sc.).
    After a postdoctoral year at Oxford University, Dr. Langenberg 
joined the faculty of the University of Pennsylvania in 1960, as 
Assistant Professor of Physics. He held the rank of Professor of 
Physics from 1967 to 1983, and had a secondary appointment as Professor 
of Electrical Engineering and Science from 1976 to 1983. While at Penn, 
he served as Director of the Laboratory for Research on the Structure 
of Matter (an interdisciplinary materials research laboratory) and as 
Vice Provost for Graduate Studies and Research.
    In July 1980, President Jimmy Carter appointed Dr. Langenberg 
Deputy Director of the National Science Foundation. He served in that 
position through December, 1982, and served also as Acting Director of 
the Foundation during the first six months of his tenure.
    On February 1, 1983, Dr. Langenberg became Chancellor of the 
University of Illinois at Chicago (UIC), where he also held the rank of 
Professor of Physics.
    On July 1, 1990, Dr. Langenberg became Chancellor of the University 
System of Maryland. The System comprises eleven degree-granting 
institutions and two research and service units. He retired as 
Chancellor on April 30, 2002 to become Chancellor Emeritus and Regents' 
Professor of Education K-16. He also continues as Professor of Physics 
and Electrical Engineering at the University of Maryland, College Park.
    Dr. Langenberg's research was in experimental condensed matter 
physics and materials science. His earliest research was concerned with 
the electronic properties and Fermi surfaces of metals and degenerate 
semiconductors. A major part of his research career was devoted to the 
study of superconductivity, particularly the Josephson effects and non-
equilibrium superconductivity. He is perhaps best known for his work on 
the determination of certain fundamental physical constants using the 
ac Josephson effect. A practical consequence of this work was the 
development of a radically new type of voltage standard which is now in 
use around the world. One of the major publications resulting from this 
work is among the most frequently cited papers published by the Reviews 
of Modern Physics during the 1955-86 period, and has been dubbed a 
``citation classic.'' The work has also been recognized by the award to 
Dr. Langenberg and his co-workers of the John Price Wetherill Medal of 
the Franklin Institute. Dr. Langenberg is the author or co-author of 
over one hundred papers and articles, and has edited several books.
    Dr. Langenberg has held predoctoral and postdoctoral fellowships 
from the National Science Foundation, the Alfred P. Sloan Foundation, 
and the John Simon Guggenheim Foundation. He has been a Visiting 
Professor or Researcher at Oxford University, the Ecole Normale 
Superieure, the California Institute of Technology, and the Technische 
Universitat Munchen. In addition to the Wetherill Medal, he has been 
awarded the Distinguished Contribution to Research Administration Award 
of the Society of Research Administrators, the Distinguished 
Achievement Citation of the Iowa State University Alumni Association, 
and the Significant Sig Award of the Sigma Chi Fraternity.
    Dr. Langenberg has served as advisor or consultant to a variety of 
universities, industrial firms, and governmental agencies. He is 
currently Chairman of the Board of Directors of The Education Trust, 
Vice Chairman of the Board of Directors of the National Council for 
Science and the Environment, and a member of the Board of Trustees of 
the University of the District of Columbia. He has been a member of the 
Board of Trustees of the Alfred P. Sloan Foundation; member of the 
Board of Trustees of the University of Pennsylvania; President of the 
National Association of System Heads (NASH); Chairman of the 
Presidents' Council of the Association of Governing Boards of 
Universities and Colleges (AGB); President and Chairman of the Board of 
the American Association for the Advancement of Science (AAAS); 
Chairman of the Board of the National Association of State Universities 
and Land-Grant Colleges (NASULGC); and President of the American 
Physical Society (APS).
    Dr. Langenberg is a nationally recognized leader in education 
issues, particularly K-16 education partnerships and information 
technology as a revolutionary change agent in higher education. He was 
appointed Chairman of the National Reading Panel (NRP) in 1998 by the 
U.S. Department of Education and the National Institute of Child Health 
and Human Development. The Panel was charged by Congress to study the 
effectiveness of various approaches to teaching children how to read 
and to report on the best ways of applying its findings in the 
classroom and the home. He currently serves as a member of the National 
Research Council Committee on the Study of Teacher Preparation Programs 
in the United States.
    Dr. Langenberg was born March 17, 1932, in Devils Lake, North 
Dakota. Since 1953 he has been married to the former Patricia 
Warrington, a biostatistician who is currently Professor of 
Epidemiology and Preventive Medicine in the University of Maryland 
School of Medicine. They have four children: Karen, a marketing 
executive; Julia, a veterinarian; John, a physician; and Amy, a mother. 
Dr. Langenberg's avocational interests include photography, history, 
and travel; he has visited or resided on all seven continents.

    Chairman Ehlers. Thank you very much, Dr. Langenberg. Mr. 
Ruch.

   STATEMENT OF JEFFREY P. RUCH, EXECUTIVE DIRECTOR, PUBLIC 
           EMPLOYEES FOR ENVIRONMENTAL RESPONSIBILITY

    Mr. Ruch. Mr. Chairman and Mr. Wu, thank you very much for 
the opportunity to be here.
    I bring a somewhat different perspective, in that PEER is a 
service organization for rangers, naturalists, lawyers, 
scientists, who find themselves in ethical conflicts with their 
own agencies. In essence, we act as kind of a giant battered 
staff shelter for federal service, with our clients ranging 
from the Chief of the U.S. Park Police to the monitors of 
chemical weapons depots across the country.
    So the perspective I bring to you is kind of a cubicle's 
eye view of the Agency's S&T budget. A budgetary document is 
really a policy document that includes not only the numerical 
levels of funding, but also, the terms and conditions under 
which that funding is provided, and one major lapse in the S&T 
budget of the Agency is the failure to address in any way 
growing concerns about political intervention that dilutes the 
value of the science. The work, if it is compromised, and if 
the research that is reported is divorced from reality, the 
public does not get the benefit of the bargain.
    In contract to the open science policies that have recently 
been adopted by NOAA and NASA, EPA has actually taken an 
opposite tack, and instead, reinforce their policy that 
scientists are not able to not make public statements without 
approval from their political chain of command. With scientists 
not being able to understand what they can clearly share with 
colleagues or publicly talk about, or which questions they can 
answer, it makes it difficult for the scientific process to 
proceed. We understand the need for an administration to have a 
one voice policy, but a one voice policy as applied to science 
is somewhat problematical.
    Secondly, as Mr. Wu had averred to, there are growing 
reports of suppression of research from everyplace from the 
World Trade Center to the Western oilfields of Colorado, and I 
can assure you that the cases that have been reported in the 
media are only a very, very small percentage of what is 
happening in hundreds of instances in laboratories, in field 
offices throughout the country. In the written testimony, I 
have pointed out that the Agency's dioxin reassessment has been 
held in draft status for more than 12 years. If the research is 
never reported, it can never be used by you and other 
policymakers in making sure that regulation fits the problem, 
and I would urge that the committee recommend that EPA 
inventory the documents that it has in draft status, and 
indicate why they remain in draft status.
    And finally, the absence of any kind of policy by the 
Agency to protect their scientists who report manipulation of 
findings. Scientists often do not fit neatly into the 
whistleblower box, in that they are not reporting necessarily 
violations of laws, but that recommendations are dropped, or 
that methodologies are skewed. EPA, we would urge the committee 
to consider, urging EPA to adopt policies that protect their 
scientists when they express what their findings determine, and 
also, do not reward managers who suppress those findings.
    We also think that it is significant, in addition to what 
is funded, what is not funded in the EPA budget, is to what 
they have chosen to fund. The priorities chosen send a message 
to the scientists basically on the ground. So, for example, 
while the Agency is cutting back on funding for global warming, 
ecological research, sustainability, they are committed to a 
multi-year public relations effort called ``Science for You,'' 
that is designed to provide a corporate branding campaign for 
EPA's science, and this multimillion dollar multiyear effort is 
coming out of money that would otherwise be used for research.
    Similarly, as we have reported, EPA has decided to cut its 
library program by 80 percent, and just yesterday, Region 5, 
representing the six Midwestern states, announced they are 
going to close their library. The same research program that 
has indicated that it can't close its library is spending $7.2 
million, almost three times the library budget, on a new 
information technology system that staff is finding complicated 
and as problematical as the recordkeeping system for the FBI. 
So, we would urge the committee to consider recommending that 
research funds not be diverted to peripheral activities, such 
as public relations campaigns that couldn't be fairly called 
research.
    And then finally, I wanted to just note one aspect of the 
dearth of funding that has been referred to by the other 
witnesses is that it makes the Agency's priorities and projects 
much more susceptible to outside influence, and what I am 
specifically referring to are offers of funding from corporate 
interests. We noted the fact that corporate research 
agreements, cooperative research agreements with corporations 
have skyrocketed during the Bush Administration, and the idea 
that corporations can, by the offer of money, skew what 
projects the Agency does, we think is somewhat disturbing.
    As you know, this past spring, GAO reported that the Agency 
lacks any kind of safeguards against conflicts of interest in 
these kind of relationships, and the one that we think is kind 
of the paradigm is the one that the Agency entered into for the 
human experiment CHEERS in Florida, the pesticide experiment, 
in which parents were recruited to apply pesticides in the 
rooms primarily occupied by their infants under age three. In 
return for a $3.2 million contribution by the American 
Chemistry Council, EPA expanded the study to include exposure 
by infants to other chemicals in addition to pesticides. What 
disturbed scientists about this, among other things, was the 
fact that the point of the experiment was to determine not what 
health effects it may have, but the extent to which these 
chemicals were absorbed in the infant's system, as measured by 
urine tests.
    These type of things are the sort of thing that require 
some outside review, and present, we think, a danger to both 
the integrity and to the system of priorities that should 
govern the Agency's budget, so we would urge that the Committee 
recommend that the Agency adopt safeguards, and provide some 
sort of external review for these cooperative agreements.
    Finally, I guess I would like to note that we think that 
both the committee and the Agency leadership would be better 
informed if they actually asked their scientists what was going 
on. We noted that ORD has stopped doing internal surveys of its 
scientists in 2003, and even when they did those surveys, they 
were not publicly reported. We actually had to sue to get the 
results of these surveys. We would urge the Committee to 
consider asking the Agency routinely, as a feedback mechanism, 
to have their scientists independently surveyed, and that the 
results of those surveys be used by the Congress as a way to 
evaluate the management of EPA's science and technology 
program.
    Thank you very much for this opportunity.
    [The prepared statement of Mr. Ruch follows:]

                 Prepared Statement of Jeffrey P. Ruch

    Good morning. My name is Jeff Ruch and I am the Executive Director 
of Public Employees for Environmental Responsibility (PEER).
    PEER is a service organization dedicated to protecting those who 
protect our environment. PEER provides federal, State, local and tribal 
employees dedicated to ecologically responsible management with a safe, 
collective and credible voice for expressing concerns. Headquartered in 
Washington, D.C., PEER has a network of ten state and regional offices. 
Most of our staff and board members are themselves former public 
employees who left public service after experiencing ethical conflicts 
within their former agencies.
    On a daily basis, public employees in crisis contact PEER. In our 
D.C. office alone, we average five ``intakes'' per day. A typical 
intake involves a scientist or other specialist who is asked to shade 
or distort the truth in order to reach a pre-determined result, such as 
a favorable recommendation on a project or approval of the commercial 
release of a new chemical. It is in this context that PEER hears from 
scientists working within the U.S. Environmental Protection Agency 
(EPA). My remarks reflect the input we have received from EPA 
scientists who are not afforded an opportunity to openly voice their 
concerns.
    In this morning's testimony I have been asked by the Committee to 
comment on the relative strengths and weaknesses of EPA's proposed 
Science and Technology Budget. In addressing this topic, I will: 1) 
spotlight three structural weaknesses in the budget proposal; 2) 
analyze the priorities reflected by proposed budgetary cuts compared 
with proposed augmentations; and finally 3) focus on several emerging 
challenges that are not provided for in the budget plan.

I.  Structural Weaknesses: Building on Sand

    Regardless of the particular budgetary levels, the paramount 
measure of a budget is whether it delivers value for what is expended. 
Thus, with respect to its expenditures on science, technology and 
research, the essential question is what the public is getting for its 
investment.
A. Politicized Science
    The failure of EPA to dispel concerns voiced by its own scientists, 
as well as outside observers, compromises the perceived value and 
reliability of agency science. The past several years have witnessed 
numerous instances in which EPA scientific work is altered, manipulated 
or suppressed (in ``draft'' status) for non-scientific reasons.
    Rather than confront this issue, EPA shrinks from these questions 
or offers only bland, non-specific denials. Until EPA offers its 
scientists some meaningful protections for discussing emerging issues 
or reporting findings without prior political vetting, the agency's 
entire science program will be tainted in the eyes of both the 
scientific community and the general public.
    For example, in contrast with recent ``open science'' policies 
announced by the National Oceanic and Atmospheric Administration (NOAA) 
and the National Aeronautics and Space Administration (NASA), EPA has 
reiterated its policy of requiring prior headquarters approval for all 
communications by its scientists with the media.
    In a February 9, 2006 e-mail to all staff, Ann Brown, the News 
Director for the agency's science arm, the Office of Research and 
Development (ORD), admonished--

         ``We are asked to remind all employees that EPA's standard 
        media procedure is to refer all media queries regarding ORD to 
        Ann Brown, ORD News Director, prior to agreeing to or 
        conducting any interviews. . ..Support for this policy also 
        will allow reasonable time for appropriate management 
        response.''

    By contrast, less than a week earlier on February 4, 2006, NASA 
Administrator Michael Griffin sent an all-employee e-mail in which he 
committed the agency to ``open scientific and technical inquiry and 
dialogue with the public.'' Mr. Griffin stated, ``It is not the job of 
public affairs officers to alter, filter or adjust engineering or 
scientific material produced by NASA's technical staff.''
    Ten days later, in a Valentine's Day message to all staff, NOAA 
Administrator Conrad Lautenbacher wrote--

         ``Our media standards also reflect an open policy. We 
        encourage our public affairs staff to keep abreast of media 
        interests. I encourage our scientists to speak freely and 
        openly. Dozens of you every day are talking to the media and 
        providing the results of peer reviewed science across a wide 
        variety of NOAA topics. We ask only that you specify when you 
        are communicating personal views and when you are 
        characterizing your work as part of your specific contribution 
        to NOAA's mission.''

    Why are scientists at NASA free to answer questions about global 
warming while their colleagues at EPA are not? Unless the EPA believes 
that science comes in Republican or Democratic flavors, agency 
scientists should be able to discuss findings without having to check 
whether facts comport with management policy.
B. Alienating Scientists
    In any organization, it is difficult to be successful without the 
support and cooperation of the staff required to implement the agency's 
programs. In EPA, its own internal surveys signal a growing disconnect 
between scientists and managers within its research program.
    Breakdowns in trust, communication and shared vision are beginning 
to threaten the Nation's largest scientific organization dedicated to 
studying human health and the environment.
    EPA's Office of Research and Development consists of three national 
laboratories, four national centers, and two offices located in 14 
facilities around the country employing approximately 2,000 scientists. 
Internal surveys were taken in 1999, 2001 and 2003 to gauge 
``organizational climate.''
    While overall morale remains high, survey results show increasing 
doubts about the ``competence'' and trustworthiness of ORD leadership. 
With a 66 percent response rate, the latest survey (2003) found--

        <bullet>  Scientists' trust in leadership declines markedly at 
        each step higher up in the chain-of-command, with 38 percent of 
        staff scientists reporting distrust of laboratory managers 
        versus only 23 percent who expressed trust;

        <bullet>  Less than one in three respondents (30 percent) felt 
        that lab managers ``address challenging situations 
        competently;'' and

        <bullet>  Barely half (56 percent) were optimistic about ORD's 
        future.

    In essays accompanying the survey, one scientist wrote ``Despite e-
mail and the like, there is no real communication in the organization 
and no consistent mechanism to share knowledge.'' Another added, ``A 
complete lack of communication exists leading to the strong distrust 
that is present today.''
    While these results may be the early warning signs of a scientific 
organization drifting toward dysfunction, ORD has stopped conducting 
these surveys. Nor does there appear to be any effort by the current 
ORD leadership to address trust and communication breakdowns.
    Although these survey results predate the proposed 2007 Science & 
Technology Budget, the proposed cutbacks in research funding will only 
aggravate trust and credibility concerns by agency scientists.
    Significantly, PEER had to file suit under the Freedom of 
Information Act to obtain the surveys after ORD refused to release 
them. In July 2005, EPA surrendered the surveys and paid PEER's 
attorney fees and costs out of funds that should have been used for 
research.
C. Lack of Coherence
    In a different context, California Governor Arnold Schwarzenegger 
recently commented that a good bodybuilder could not focus on 
developing his chest, back and arms to the neglect of his abdominal 
muscles and legs. So, too, does EPA have to effectively address all 
areas affecting human health and the environment to have a coherent 
science program.
    In a draft report issued almost exactly one year ago today, EPA's 
Science Advisory Board warned that the agency is no longer funding a 
credible public health research program:

         ``[R]esource constraints. . .preclude EPA from conducting 
        science in all the areas necessary for supporting effective 
        environmental policy development.''

    Among the deficiencies highlighted by SAB were ecosystem research, 
mercury and ammonia monitoring, human responses to toxic pollution and 
an array of emerging contaminants being introduced into the stream of 
commerce. Comparing the 2007 proposed budget with the one commented 
upon by the SAB, this coherence gap has only grown more profound, 
hobbling EPA's research program like the unbalanced bodybuilder.

II.  Perverse Priorities

    The overall reduced funding levels in the Science & Technology 
Budget plan only magnify the impact of cuts as well as funding 
augmentations. A review of these shifts in funding shows increases in 
areas that appear to benefit corporate regulatory needs and cutbacks in 
areas affecting human health and basic ecological research.
A. Corporate Contributions Setting the Research Agenda
    EPA is increasingly relying on corporate joint ventures in its 
research program, according to agency documents obtained by PEER under 
the Freedom of Information Act. This trend, coupled with declining 
research budgets, suggests that EPA is diverting funds from basic 
public health and environmental research toward applied research to 
address regulatory concerns of corporate funders.
    The records obtained by PEER show a marked increase in 
``cooperative research and development agreements'' (or CRADAs) with 
individual corporations or industry associations since the advent of 
the Bush Administration. During the first Bush term EPA entered into 57 
corporate CRADAs, compared with 34 such agreements during Clinton's 
second term. Corporate CRADAs executed during the Bush Administration 
outnumber those entered into with universities or local governments.
    As a result of this trend, the American Chemical Council (ACC) is 
now EPA's leading research partner. In internal agency surveys, EPA 
scientists maintain that corporations are influencing the agency's 
research agenda through financial inducements. As one EPA scientist 
wrote, ``Many of us in the labs feel like we work for contracts.''
    A classic example of recent EPA/corporate joint ventures is the 
2004 agreement reached with the ACC to fund the now-canceled CHEERS 
experiment in which parents would have received payments and gifts in 
return for spraying pesticides and other chemicals in the rooms 
primarily occupied by their infant children. The object of this 
experiment was to test (through urine samples) the extent to which the 
chemicals were absorbed in to the infants' systems. The study protocol 
contained no provision for medical monitoring of subject children or 
any controls against improper chemical application by parents.
    In return for its $2 million contribution to CHEERS, the ACC 
obtained an agreement to expand the scope of the study beyond 
pesticides to include the exposure of the subject infants to flame 
retardants and other household chemicals.
    As Members of this committee know, a Government Accountability 
Office study released in April 2005 concluded that EPA lacks safeguards 
to ``evaluate or manage potential conflicts of interest'' in corporate 
research agreements. No such safeguards are proposed for FY 2007.
    Thus, under its current leadership, EPA is signaling its 
willingness to become an arm of corporate R&D in which the selection of 
agency research topics will increasingly be influenced by the 
availability of corporate underwriting.
B. Winners and Losers in 2007
    An examination of the proposed changes in funding levels contained 
within the 2007 Science & Technology Budget reveals a pattern in which 
public health-related research is reduced while research with corporate 
regulatory applications is enhanced:

        <bullet>  Research on the toxic effects of pesticides on humans 
        and the environment would be reduced by $4.1 million while the 
        proposed budget for registering new pesticides and re-
        registering existing chemical agents would grow by $643,000;

        <bullet>  The climate protection program would lose 
        approximately one-third ($6.1 million) of its funding and 
        research on air pollution's contribution to global warming 
        would be also be cut by more than $1.1 million. Support for 
        corporate clean air trading credits would, by contrast, jump by 
        three-quarters of a million dollars; and

        <bullet>  Support for work on human health and ecosystems would 
        fall by almost $10 million; research in land protection would 
        lose more than a million dollars; and agency efforts to promote 
        sustainability (including appliance efficiency) would be 
        slashed by nearly a fourth ($7.2 million).

    At the same time, the Science & Technology Budget proposes healthy 
increases in a number of Homeland Security-related areas. Regardless of 
the merits of these security-related programs, it appears that these 
new expenditures have come at the expense of longer-term environmental 
research.
C. Public Relations Budget Intact
    Despite these cutbacks in health and environment-related research, 
EPA is financing a ``multi-year'' public relations campaign, including 
public service announcements, video news releases plus ``major events, 
tours and advance [work]'' to ``enhance [its] corporate image,'' 
according to agency documents. The campaign began in 2004 and runs 
through September 2007.
    This ambitious rollout features a media campaign called ``Science 
for You'' run out of ORD. The effort also includes--

        <bullet>  Operating a ``radio and television news director 
        science awareness program;''

        <bullet>  Placing ``feature'' media accounts;

        <bullet>  Developing a ``print and virtual press media kit;''

        <bullet>  Conducting a ``readership/product use survey;'' and

        <bullet>  Operating a ``Science Writer's Circle'' to enlist 
        professional writers to re-write scientific tracts.

    As part of this program, EPA surveyed what it considers to be 
``influential'' news editors to assess their ``awareness of and 
opinions about EPA's scientific research program,'' according to a copy 
of the questionnaire distributed this past November by JDG 
Communications, Inc., a public relations firm based in Falls Church, 
Virginia under contract to EPA. The survey consisted of 15 questions, 
including--

        <bullet>  ``Do you feel that U.S. environmental policy is 
        influenced more by political interest or research findings?''

        <bullet>  ``When you receive information from EPA, do you think 
        there is research behind this information?'' and

        <bullet>  Asking editors to compare the scientific credibility 
        of EPA against other entities, such as the National Science 
        Foundation, the National Institutes of Health and the Centers 
        for Disease Control and Prevention.

    To the extent that EPA seeks to measure its scientific credibility, 
one would think that the agency should be surveying scientists rather 
than journalists. Of greater concern, however, is that this public 
relations effort is being financed out of funds that could otherwise be 
used for public health and environmental research.
    At our request, the EPA Office of Inspector General has reviewed 
the legality of this program and concluded that it does not violate the 
Congressional prohibition on the use of appropriated funds to generate 
``publicity or propaganda.'' In a letter dated January 30, 2006, the 
EPA/OIG Director of Public Liaison informed PEER that the program as 
currently constituted was not illegal. We are seeking the basis of this 
conclusion through a pending Freedom of Information Act request.
    One area that the EPA/OIG declined to review was the 
appropriateness of using research funds for public relations efforts. 
Since the OIG considers this question beyond its purview, it is 
incumbent upon Congress to consider whether EPA's scarce research 
dollars ought to be shielded from diversion to public relations 
efforts.
D. Research Without Libraries
    Under EPA's proposed FY 2007 budget, the agency is slated to shut 
down its network of libraries that serve its own scientists as well as 
the public. Approximately $2 million of a total agency library budget 
of $2.5 million will be lost.
    According to staff documents, the initial plan included shutting 
down the electronic catalog which tracks tens of thousands of unique 
documents and research studies that are available nowhere else. After 
this plan was revealed last month, EPA backtracked and pledged to 
restore the $500,000 budget for the EPA Headquarters library and its 
electronic catalog, but this reversal will likely mean deeper cuts 
elsewhere in the library network.
    EPA's own scientists and enforcement staff are the principal 
library users. EPA's scientists use the libraries to research questions 
such as the safety of chemicals and the environmental effects of new 
technologies. EPA enforcement staff use the libraries to obtain 
technical information to support pollution prosecutions and to track 
the business histories of regulated industries.
    EPA currently operates a network of 27 libraries out of its 
Washington, D.C. Headquarters and ten regional offices across the 
country. The size of the cuts will force most of the libraries to shut 
their doors and cease operations. Each year, the EPA libraries--

        <bullet>  Handle more than 134,000 research requests from its 
        own scientific and enforcement staff;

        <bullet>  House and catalog an estimated 50,000 ``unique'' 
        documents that are available nowhere else; and

        <bullet>  Operate public reading rooms and provide the public 
        with access to EPA databases.

    This cutback stands in sharp contrast with President Bush's plan to 
significantly increase ``cutting edge'' research as part of his 
``American Competitive Initiative'' as it is not at all clear how EPA 
scientists are supposed to engage in cutting edge research when they 
cannot find what the agency has already done and must spend 
considerable time reinventing the proverbial wheel.
    Access to information is one of the best tools we have for 
protecting the environment. In considering EPA's Science & Technology 
Budget, the Congress should also take into account the extent to which 
agency research will remain accessible to EPA's own staff, as well as 
to university scientists and other researchers.
E. High Cost of Going Partially Paperless
    While the Science & Technology Budget contains only a modest 
increase ($95,000) in Information Technology Management, elsewhere in 
its budget, EPA is making a relatively large investment in what appear 
to be marginally useful and potentially disruptive information systems. 
In an effort to reduce paperwork, EPA is paying an estimated $7.2 
million to obtain 18,000 site licenses for something called the 
Enterprise Content Management System.
    In addition to the licenses, EPA has committed itself to 
approximately $4.3 million per year in ongoing maintenance cost 
($234.00 per person/per year  18,000) for the system.
    ECMS describes itself as ``The official EPA content management 
program which includes software, hardware, policies, standards and 
guidance to manage unstructured information such as documents, records 
and web content.'' According to its PowerPoint presentation, this 
elaborate new information regime is supposed to ``Reduce costs and 
improve efficiency; Improve institutional memory; Streamline processes; 
Manage workflows; [and] Automate records capture.''
    Despite this investment, the new system software will never be 
applicable to research records. Thus, the agency will have to maintain 
a wholly separate information system for its research programs--which 
constitute the bulk of the agency's paper holdings.
    It is puzzling how an agency that can no longer afford to maintain 
libraries can afford to invest in new information systems that appear 
to be both costly and ineffective. For what the agency is spending on 
ECMS, EPA could, for example, restore its global warming research 
programs to previous levels.

III. Emerging Challenges

    The proposed FY07 Science & Technology Budget does not appear to 
make any allowances for expenditures to address a series of emerging 
challenges confronting EPA.
A. Brave New World of Human Experimentation
    Under new rules that are slated to become effective April 7, 2006, 
EPA will welcome industry experiments using human subjects to test the 
effects of pesticides and other commercial toxins. In addition, EPA 
itself will be able to conduct or finance a broad range of experiments 
in which humans are exposed to potentially harmful chemicals.
    According to its industry supporters, the new EPA rules will enable 
experiments on humans to replace reliance on animal studies. During the 
past decade, human testing has become central to the regulatory plans 
of the chemical industry. These companies are challenging the utility 
of animal studies and demanding that EPA use human subject tests as the 
new safety benchmark. Because human tests cannot use the same high 
concentrations used in animal tests, companies can argue that there is 
no definitive proof of harm from the introduction of chemicals based 
upon small-scale human studies of dubious probative value.
    The agency's latest plan is the product of a Congressional 
ultimatum this past summer to ban all future human tests until EPA 
finally adopted ethical safeguards. Congress acted after mushrooming 
controversy concerning the ``CHEERS'' study. In order to dissolve the 
Congressional human subject ban, EPA has offered a grudging plan that 
imposes few absolute safeguards. For example, EPA's plan would allow--

        <bullet>  Dosing experiments involving infants and pregnant 
        women using any chemical (except pesticides). Thus, companies 
        will be free to test other toxic agents, such as perchlorate, 
        on nursing mothers;

        <bullet>  A repeat of the infamous (now canceled) CHEERS study 
        because EPA pointedly omits any check against undue economic 
        inducement, i.e., paying poor people enough to lure them into 
        signing informed consent papers; and

        <bullet>  Studies on orphans, mentally ill children and 
        prisoners without informed consent.

    We are not able to find funds reserved for staffing human subject 
review boards or for providing ethics training to agency scientists who 
will be involved in this burgeoning field of human experimentation.
    In addition, there is another potential unplanned budgetary impact 
in the legal and financial liability of EPA and its contractors for 
human experiments conducted or sponsored by the agency in which 
subjects suffer harm. In a recent Maryland Court of Appeals case 
(Grimes v. Krieger, (2001) 362 Md. 623, 766 A.2d 147], Johns Hopkins 
University was held to answer for a study involving public health 
concerns associated with children and lead paint. The study looked at 
the lowest cost methods of effective lead abatement.
    Aggrieved families of participants sued for damages from the 
effects of lead exposure. The lower court dismissed the suit but 
Maryland's highest court reinstated the claim, writing--

         ``We hold that in Maryland a parent, appropriate relative, or 
        other applicable surrogate, cannot consent to the participation 
        of a child or other person under legal disability in 
        nontherapeutic research or studies in which there is any risk 
        of injury or damage to the health of the subject.''

    The experiments in the Grimes case parallel the type of experiments 
to which EPA will be throwing open its doors. Neither its researchers 
nor its Office of General Counsel have formally considered policies and 
practices to minimize agency (and thus taxpayer) liability for the 
hundreds of new human studies expected to be conducted each year.
B. Waves of New Chemicals
    Each year, an estimated 1,700 new chemicals are introduced into the 
stream of American commerce. EPA has no mechanism to regulate these new 
chemicals. Even more fundamentally, EPA's research program is not 
equipped or funded to monitor these new chemical agents.
    The consequences of this huge blind spot are illustrated by the 
case of perfluorochemicals, better known as PFCs. Introduced by 3M in 
products such as Scotchgard, Teflon, Stainmaster and Gore-Tex, the 
chemicals are now widely distributed across the globe. This highly 
toxic and persistent class of chemicals can now be found in the blood 
of over 95 percent of Americans. PFCs have been linked to developmental 
defects, high cholesterol, and immune disorders.
    Without the ability to carefully monitor the chemical and conduct 
strict oversight to accompany voluntary phase outs that EPA negotiated 
earlier this year with 3M, DuPont and other companies, these toxic 
chemicals will continue to pollute people, their food, and their 
environment with unknown adverse effects.
    Each year, a new chemical horror story is unfolding but the agency 
charged with protecting the environment is more than a day late and a 
dollar short. If EPA is ever to get a handle on the threats posed by 
what are called ``emerging contaminants'' there must be both a 
dedicated commitment of funds and agency leadership.
    Unfortunately, a review of the proposed Science & Technology Budget 
suggests that neither the funds nor the leadership will be available.
C. Candor Backlog
    Even as waves of new chemicals are being introduced, EPA has been 
mired in assessing known chemicals and their impacts. For example, the 
EPA Reassessment of Dioxin and its effects has been kept in draft form 
since 1994. Thus, agency decisions on one of the most persistent and 
widespread pollutants has been held hostage for 12 years by political 
complicity to corporate pressure.
    Similarly, under Defense Department and defense contractor 
pressure, EPA delayed setting standards for perchlorate, a chemical 
found to contaminate hundreds of drinking water aquifers in more than 
20 states. The resulting overdue standards were so weak that affected 
states, such as California and Massachusetts, are adopting their own, 
much stricter standards.
    So long as the publication of EPA scientific findings (unaltered by 
politics) remains so vulnerable to corporate and interagency 
manipulation, the Science & Technology program will be relegated to 
producing useful work only around the margins, timidly leaving the 
major public health and environmental challenges for others.

                     Biography for Jeffrey P. Ruch

    Jeff Ruch has been the Executive Director of PEER since 1997. With 
Jeff DeBonis, he helped to start PEER and for its first four years 
served as General Counsel & Program Director. Prior to that Jeff was 
the Policy Director and a staff attorney at the Government 
Accountability Project representing whistleblowers from both the public 
and private sector. Before coming to D.C., Jeff worked in California 
state government for 17 years, mostly in the State Legislature as 
counsel to various committees where he drafted literally hundreds of 
laws on topics ranging from energy conservation to the rights of 
employed inventors. Jeff served stints as a deputy district attorney, 
an appellate court clerk and is a graduate of the California 
Correctional Officers Academy.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Ehlers. Thank you very much.
    You have probably heard the bells and the whistles and the 
buzzers. We do have votes on--we have--probably had best not 
start the questioning process at this point, but we will resume 
it when we return from voting, and I would just like to make a 
few comments, just as----
    The staff has been kind enough to put a chart, which 
without objection, I will order into the record, of the history 
of funding for ORD in current dollars and in constant 1987 
dollars, indicating that ORD's budget today is well below what 
it was in 1990, and in current dollars, it is well below what 
it was four years ago, to the tune of almost $90 million drop. 
So clearly there are some problems here.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                 Paying for Homeland Security Research

    Chairman Ehlers. I will ask Dr. Gray a quick question 
before we go, and that is my earlier comment about why in the 
world would--should you have to pay for doing Homeland Security 
research. Normally, the interagency agreements, if some agency 
wants another agency to do something, there is a transfer of 
funding for that.
    Has this been discussed with Homeland Security, and if so, 
what has their response been?
    Dr. Gray. Well, thank you, Mr. Chairman.
    Our work in homeland security is guided by a number of 
different directions, including Presidential directives that 
order, because of our level of expertise in specific areas, to 
be responsible for decontamination and water security work. 
That work was given to us, because it builds on expertise 
within ORD and within the Agency.
    What that means is that the work that we do in homeland 
security often, virtually always, has opportunities to be 
beneficial in other parts of Agency activities. As a quick 
example, some of the things that we are looking at in the area 
of decontamination and risk assessment is microbiological risk 
assessment. We have recently funded, together with the 
Department of Homeland Security, the Center for the Advancement 
of Microbiological Risk Assessment. The work that comes from 
that will be helpful in the case of an attack with some kind of 
a microorganism. It would also help us in water--in our water 
program. It will help us in our land program. It will help us 
to understand the risks that microorganisms might pose in a 
variety of different places.
    The work that we have done in rapid risk assessment to help 
support homeland security played a role in the response to 
Katrina. So I actually believe that the work that we are doing 
builds on expertise and knowledge we already have in ORD, and 
it has dual use, use not only in homeland security, but a 
variety of other uses that are very important and useful to the 
Agency.
    Chairman Ehlers. Has anyone in the EPA asked the Homeland 
Security Department to cover part of the costs?
    Dr. Gray. I don't know the answer to that.
    Chairman Ehlers. I would appreciate if you would check and 
let me know.
    Dr. Gray. Will do.
    Chairman Ehlers. It seems to me grossly unfair in this 
situation, and I recognize the dual role, but the principle 
still holds, even when one agency asks another, or when they 
are working together, they at least share the costs together, 
and I think in view of your budget situation, I think that is 
essential at this point.
    I do want to make it clear, I am extremely grateful to the 
President for the large increase in research funding that he 
has proposed in his current budget. It is obviously a 
recognition of the needs of the country, and he is meeting 
those needs. I am very encouraged by that. I just want to make 
sure that you don't get hurt in the process, because--simply 
because you are small and off to the side.
    I hear the buzzer again, and we will have to adjourn, and 
we will return as soon as we can. The hearing is in recess.
    [Recess.]
    Chairman Ehlers. Thank you. I apologize for the 
interruption, and a long series of votes on an appropriations 
bill, and you know, everyone feels very strongly about 
appropriations bills. So we will resume, and I will continue 
with my questioning.

                             Water Sentinel

    Dr. Morgan, this is somewhat along the lines of what I 
started with earlier. In your testimony, you state that some 
aspects of the Water Sentinel Program appear to be operational. 
Specifically, what aspects of Water Sentinel are operational?
    Dr. Morgan. Well, we have had a little difficulty figuring 
this out, and you might ask Dr. Gray, but our sense is that 
there are elements that go beyond simply developing new 
technology. Once you have deployed this in a number of states 
and regions, presumably at some stage, you need to transition 
it over to--from an operational arm, as opposed to a research 
arm of the Agency, and that is the basis for our concern. But 
as I say, it has been a little difficult to kind of figure out 
how this is distributed across the Agency, and Dr. Gray may be 
in a position to provide you with a better answer than I.
    Chairman Ehlers. Yes, he is next in line on this question. 
Dr. Gray, first, yeah, do you basically agree with the comments 
of Dr. Morgan in his testimony, and if not, why not? And in 
particular, what--why is EPA proposing to fund these 
operational activities with science and technology money, if in 
fact, it is becoming operational?
    Dr. Gray. Well, Mr. Chairman, Water Sentinel is an 
important program to help us in protecting our country's water 
infrastructure, and the point it is at now is really still a 
research and a demonstration project. It has portions that are 
research, looking at sensors, trying to understand distribution 
systems, modeling these so that we can do the best job we can 
of protecting them.
    Another part of it is demonstration, and that is making 
sure that our new technologies and our new approaches actually 
work. In fact, that is what we are asking for in 2007 is an 
opportunity to expand those demonstration projects beyond a 
single pilot, to some more water systems, where we can look at 
whether differences in water type, water disinfection 
processes, distribution systems, affect the ability of these 
systems to work. That is demonstration.
    We do imagine that soon, there will be the beginnings of 
transition, as we take these technologies, these methods, these 
approaches, from the research and demonstration mode into use 
in these water--in water utilities, and we have, we are 
committed to making, getting that information into the hands of 
the water utilities as soon as we can.
    Chairman Ehlers. Dr. Morgan.
    Dr. Morgan. Yeah, one of the issues we haven't really been 
able to understand is the extent to which the homeland security 
research program is thinking about these issues at a 
sufficiently high systems level. I mean, you could devise a 
whole lot of wonderful sensors and other devices, and still, at 
an operational level, for example, not turn out to be able to 
detect stuff with sufficient lead time, or produce a system 
that was sufficiently economical to use widely.
    We are not--we simply can't understand how much of that 
kind of analysis has been done, and when I say we, I am 
referring to our Homeland Security Subcommittee, which has 
talked at some length with the homeland security folks within 
the Agency. And we are simply concerned that one not put a 
whole lot of money into instruments that will produce 
interesting results, but which collectively, don't provide us 
all that much protection. We would like to see arguments for 
how, in fact, these devices will provide that protection.
    Chairman Ehlers. Thank you for your comments, and we will 
pursue that further later on, probably not in this hearing, but 
with written questions.
    I am pleased to recognize my Ranking Member, Mr. Wu.

                          Scientific Integrity

    Mr. Wu. Thank you very much, Mr. Chairman.
    Mr. Ruch, I want to follow up on your testimony concerning 
the politicization of science, and scientific integrity. As you 
probably know, there was a disturbing incident in Oregon in 
February, late January, early February, where a graduate 
student, well, a lot of not too good news is on the front page 
of a newspaper, and I have the front page of the Oregonian 
here. It is dated February 7, 2006, and let me just read the 
first couple of paragraphs, and then, the last couple of 
paragraphs of the story.
    ``The Federal Government has abruptly suspended funding for 
Oregon State University research that concluded federally 
sponsored logging after the 2002 Biscuit fire in southwest 
Oregon set back the recovery of forests.''
    ``The action came after a team of scientists from OSU and 
the U.S. Forest Service published their results last month in 
Science, the Nation's leading scientific journal.''
    ``It escalated the controversy surrounding the findings, 
which undercut Bush administration-backed arguments for logging 
after wildfires. The research, led by a 29-year-old graduate 
student, already had come under attack within OSU's College of 
Forestry by professors who contend that logging and replanting 
speed the recovery of burned forests.''
    ``Those professors tried but failed to persuade Science not 
to publish the one-page report.''
    ``It is totally without precedent as far as I can 
recollect,'' said Jerry Franklin, a Professor at the University 
of Washington--''
    And I am going to skip to the conclusion of this.
    ``The editor of Science, Donald Kennedy, in addressing the 
BLM's concerns about whether this paper had public policy 
implications and inappropriately crossed the line, said the 
BLM's view ``would cripple anyone from ever working on a 
science problem with a policy impact.''
    ``Andy Stahl, executive director of Forest Service 
Employees for Environmental Ethics, said the suspension of 
funding was a ``shot across the bows'' to researchers who 
produce findings the government does not like.''
    ``Either way, the Administration, regardless of the outcome 
of this incident, has made its message clear. You knuckle under 
and give us the results we want, or we don't fund you.''
    And this is an article dated February 7, by Michael 
Milstein of the Oregonian. Even though the BLM, in response to 
the furor about the pulling of funding, eventually restored 
funding this program, I think this sends a chilling signal to 
researchers everywhere, and as far as I am concerned, this 
incident is not over until federal agencies pledge not to take 
actions like this, and not to send a chill through the 
scientific community.
    Mr. Ruch, do you know of similar or parallel incidents in 
agencies other than the BLM, in the EPA or NOAA, or in any 
other agencies that fund or do environmental or health-related 
research?
    Mr. Ruch. Yes. I guess I would amend Mr. Stahl's comment. I 
don't think it is a shot across the bow. I think we are in a 
shooting gallery. I don't think this was the most prominent, 
and it may only be the latest incident.
    For example, in BLM, we are representing one of their 
managers, where the agency withdrew $700,000 in funding 
concerning the health effects of a mine in Nevada, rather than 
have inconvenient information come out, and so, rather than 
conduct the public research, which may have implications that 
upset some of the people in the agency, they withdrew the money 
altogether.
    In the Department of Interior and elsewhere, I mean, even 
at the earliest stages of the Bush Administration, one of our 
clients was, you may recall, the mapmaker for the U.S. 
Geological Survey, who was fired because he put online a map of 
the Arctic Refuge Exploration Area crosshatched with the 
migratory path of the caribou, so even at the earliest stages, 
it was clear that science, even down to the level of maps, was 
going to be politically vetted.
    And in agencies like the U.S. Forest Service, if you talk 
to researchers in their research system, they have about 2,000 
scientists who work in their network of research stations. They 
can give you example after example of where the Forest Service 
has altered funding on issues like grazing's effect on the 
health of lands, the effect of declining water quality on 
native fish stocks, et cetera, et cetera.
    In the EPA and, specifically, ORD, the most frequent 
complaint we hear is not so much about that kind of aggressive 
or naked suppression, so much as things like reports being kept 
in draft form, or a promising report in one area not being 
followed up, or preliminary information that is not coupled to 
other information. In other words, it is almost like the 
research is deliberately kept balkanized so it is marginal, and 
never can be used in a policy-making setting.
    Mr. Wu. Well, I have some followup questions for you, Mr. 
Ruch, but since my time is expiring, I want to flip over to Dr. 
Gray.
    Dr. Gray, Mr. Ruch has stated that there is an unusual 
inventory of delayed reports, reports that are in draft form? 
Is the Agency, is the EPA amenable to doing an inventory of 
just how many draft reports are in draft form, how long they 
have been held in draft form, and the reasons why, if some of 
them have been held for a long time, what the reasons are for 
having held these reports in draft form for such a long time?
    Dr. Gray. Well, thank you for the question, Mr. Wu.
    It is very clear that EPA has reports that are in draft 
form, and we do that, because we put our reports, we put our 
work, we put all of our products through a very rigorous peer 
review process. That peer review means that we are working with 
scientists outside the Agency, independent scientists in 
academia, in the private sector, in NGOs, who make sure that 
our work is of the highest quality.
    Mr. Wu. But we hear a report of a 12-year period that a 
report is in draft form. I mean, wouldn't you think that in 12 
years, that the paper would either be approved or rejected, 
rather than kind of living in limbo?
    Dr. Gray. Well, see, that is the wonderful thing about the 
peer review process is, we are not going to reject a report 
that our scientists have put together. We are going to learn 
from the outside world. We are going to learn from the experts 
that are outside of the Agency, and we are going to make that 
better. Making it better takes time.
    Mr. Wu. Twelve years.
    Dr. Gray. Sometimes, it takes a long time. That is now at 
the National Academy of Sciences, and they have had it for two 
years. It takes time to get science right, and we are very 
careful about getting our science right.
    Mr. Wu. Would you be willing to subject the Agency to an 
inventory of just how many reports are in draft form and held 
in that form?
    Dr. Gray. Well, sir, I am unable to speak for the whole 
Agency, but as the Office of Research and Development, we 
keep--we have something called our science inventory, where we 
keep track of our scientific products, and it is something that 
is open and available to anyone who wants to see where we are 
in terms of what we have published in our science.
    Mr. Wu. Including the documents that you have not 
published?
    Dr. Gray. No, we--when we release something for draft, for 
peer review, it is then available. It is publicly available.
    Mr. Wu. Okay.
    Dr. Gray. And we are happy to share those with you.
    Mr. Wu. Mr. Ruch, are there documents that are not 
released, but being held by the Agency for a long period of 
time?
    Mr. Ruch. That is my understanding. I am not in a position 
right now where I can list them, but if you gave me a couple 
days, I could provide you with a list.
    Mr. Wu. Well, it looks like we have a little factual issue 
to work out here.
    Chairman Ehlers. The gentleman's time has expired, and we 
will wait for both of them to report back to the Committee. Let 
me proceed with--if we have no other questioners, I will go 
into a second round.

                              IRIS Reform

    Dr. Gray, in your testimony, you mentioned that you are 
reforming the IRIS program, better known as Integrated Risk 
Information System. Please tell us about what problems these 
reforms are trying to fix, and what changes you are 
contemplating to the review process.
    Dr. Gray. Well, as I mentioned in my testimony, the 
Chairman, the IRIS database began in EPA 25 years ago or so, as 
something that was there to just make sure everyone in the 
Agency was using the same values and singing from the same song 
sheet. At this point, IRIS has now become, through the success, 
the hard work of the people in ORD, the kind of science that we 
do, and that we make available, a worldwide resource.
    Right now, fully a third of all of the hits on the IRIS 
website are from outside of this country. This is a very 
important national and international database. Our goal is to 
make sure that the process that we use to develop our IRIS 
profiles that are then disseminated to the broader world are 
open, transparent, and accepting of data and information and 
expertise from all parts of the scientific community. And so, 
the process changes that we are contemplating, and none of 
these are official yet. This is something that we are actively 
working through, are intended to help make a system that people 
understand how we choose the chemicals we choose to review, how 
we are going to review them, the data that we are going to use, 
and the approaches that we are going to take. So that it is a 
process that when IRIS is done, IRIS remaining an important EPA 
product, but when IRIS files are done, they can be supported by 
the entire scientific community.
    Chairman Ehlers. I understand for the first time in many 
years, the EPA is not proposing any new chemicals to be added 
to the list. What is the reason for this?
    Dr. Gray. Really, it is a situation in which we want to 
clear a backlog of assessments that we have in the IRIS 
process, where we want to make sure that those that we have 
committed to and we are actively working on get finished. So it 
is really a situation in which we want to address the chemicals 
that we are addressing now, make sure we can finish those up, 
and then, we will move forward and continue to both add new 
chemicals to IRIS, and revise those files that are there.
    Chairman Ehlers. Do you have a priority process in making 
those decisions? You know, I certainly understand the desire to 
clean up what you have got, but if some new chemicals come on 
the scene that appear to need investigation quickly, don't you 
have a process for just incorporating ones of the higher 
priority into your system?
    Dr. Gray. Priority in the IRIS process are--intend to be 
responsive, and when new, something new, something important 
comes along that needs to be addressed immediately, we have 
ways to address those. We can construct what we call 
provisional values that can be used in--that are--go through a 
less involved process in IRIS, and we can get those values out 
more quickly. We have a priority setting process, in which we 
ask for nominations for chemicals that people from the entire 
world, that people would like to see us evaluate. We look at 
those, we compare those with Agency priorities, the needs from 
the programs, the regions, the states that we work with, and 
through that process, set our priorities. But we are always 
wanting to be responsive, if there are needs.
    Chairman Ehlers. Now, with the reforms that you are 
developing, do you expect that to add time to the process, or 
are you hoping to speed things up with your reforms?
    Dr. Gray. I share the concern that many people have about 
the timeliness of the IRIS process. I think that is--
recognizing how important this database is, it is very 
important for us to come up with a process that is inclusive, 
transparent, scientifically sound, but also is predictable, 
manageable, and gets things done, and being timely is an 
important part of the process that we are looking at.
    Chairman Ehlers. I assume you are planning for these 
additional features in the budget, the 2007 budget, so I would 
certainly hope that you can at least request the money you need 
to get moving faster on this, and you may not get it, but at 
least try for it.

                         Impact of Budget Cuts

    Okay. I have another question here for Dr. Morgan and 
Langenberg. Both of you stated that EPA does unique work in 
fundamental environmental research. I would appreciate it if 
you would expand on your comments, and give some specific 
examples of unique work, and the long-term implications of 
decreases in the EPA science budget.
    Dr. Morgan. Well, let me give you just a couple of 
examples. As you well know, many environmental processes are 
very complicated. So for example, in photochemical air 
pollution, it is not the case that if I reduce just volatile 
organics, or reduce just oxides of nitrogen, that I always get 
less smog. Sometimes you get more, despite the fact that I have 
made a reduction, because the system is not linear. That is a 
well known example, but there are many areas of environmental 
science that we don't know that well, particularly ecosystem 
processes that are complex and nonlinear, and so one does need 
to invest in fairly fundamental work in order to solve real, 
applied problems.
    And so, it was with that kind of thinking in mind that we 
argue that a significant portion of fundamental research in ORD 
is critical, because if you don't invest in sort of 
understanding these complex, dynamic systems, you could end up 
doing things which, in terms of regulatory outcome, are not as 
effectively, and may even be counterproductive from what you 
are trying to achieve.
    Have I understood correctly your question?
    Chairman Ehlers. I believe so. Dr. Langenberg.
    Dr. Langenberg. I regret, Mr. Chairman, I really can't give 
you an authoritative answer to that question with examples, 
because I don't follow the work of EPA as closely as my 
colleague here does.
    But I would remark that the effects of a deficiency of 
funding, it seems to me, may have a large, and I would say 
nonlinear effect on the flexibility and the adaptability of EPA 
to respond to issues that may come up fairly suddenly. One of 
the things I learned over a couple of decades running 
universities is that very often, things pop up when you least 
expect them. You have to make a decision, you have to choose a 
wise course, and if you are a data-driven person like an 
experimental physicist, you want all the information there is 
available, and it is always unpleasant when you discover that 
critical pieces of information aren't available. Very often you 
don't have time to go out and get them. So you have to decide 
the best possible course, using a combination of information 
and judgment.
    Well, given the fallibility of human judgment, I would opt 
for more information, and it seems to me that one of the things 
that EPA and ORD must do is to anticipate, to have a broad 
enough portfolio of scientific research going on, either in the 
intramural or the extramural community, so that the chances are 
at least reasonable that if something new crops up, they will 
know something about it.
    Chairman Ehlers. Very well put. It would probably be 
discomforting to you to know that the Congress tends to operate 
mostly on the basis of judgment rather than data. But we do the 
best we can.
    I am tempted to give a little sermon here about the 
importance of the fundamental environmental research, because 
you really have to do that just to be prepared for the 
unexpected, and I would suspect that part of your backlog of 
IRIS, if you don't do the fundamental research, and really keep 
up with it, that contributes to a backlog of the more mundane 
research you have to do, because you are not using the newest 
and best ideas and methodologies.
    So I will certainly be happy to support any requests to 
improve your capability in EPA to maintain a high level of 
competency in the fundamental research, because those 
individuals doing that are likely to be invaluable in the rest 
of the Agency in advising with the new problems that come up.
    I see two heads here, nodding. Maybe a head over there, 
too. Yeah, three heads nodding yes. So I am not alone in this 
opinion. I have gone past my time. I am pleased to recognize 
Mr. Wu if you have further questions.

                          Scientific Integrity

    Mr. Wu. Thank you very much, Mr. Chairman, and just to 
follow on your comments. We really count on information from 
you all and other experts.
    Returning to the issue of scientific integrity, there has 
been a back and forth about this issue, and the Administration 
claims that this Administration is no different from any prior 
Administration, and these are random incidents that just kind 
of pop up periodically.
    Mr. Ruch, having gone through several Administrations in 
your organization, and hearing of these incidents from several 
different Administrations, is it your impression that things 
are qualitatively or quantitatively different in this 
Administration, with respect to the twisting of science for 
ideological purposes?
    Mr. Ruch. The short answer is yes. We have done surveys, in 
conjunction with the Union of Concerned Scientists, of field 
biologists and other specialists in agencies such as the Fish 
and Wildlife Service and NOAA, and those surveys report, for 
exampled, in NOAA, NOAA fishery scientists reported that a 
solid majority had instances where they directly experienced 
scientific findings reversed for nonscientific reasons.
    Mr. Wu. And that is different from the past?
    Mr. Ruch. What they are reporting is that this sort of 
influence has increased, and that what used to be an 
extraordinary circumstance has now become routine. So for 
example, in the Fish and Wildlife Service, it was not unheard 
of for Secretary Babbitt or his staff to intervene in high 
profile cases in a way that some would judge inappropriate.
    What is different now is that that same type of 
intervention is almost a daily matter, so that you have field 
managers, or in some cases, field biologists reporting they are 
getting calls from the Deputy Assistant Secretary of Interior. 
That is somewhat unheard of.
    But I must say that one of the things that we were pointing 
to that as a possible avenue is that in response to recent 
controversies, both the head of NASA and NOAA have issued open 
science policies.
    Mr. Wu. And commendably so. Commendably so.
    Mr. Ruch. And we were struck that in the same timeframe, 
the Office of Research and Development issued a closed science 
policy.
    Mr. Wu. Perhaps we will return to that in a moment. You 
mentioned the possibility of further protecting scientists and 
technical people when they express opinions or, actually, 
produce scientific results that are potentially contrary to 
current or potential policy. What are some of the suggestions 
that you or your organization have for better protection of 
people who are producing the information?
    Mr. Ruch. Well, actually, most of those suggestions are 
incorporated in a bill I believe you are a cosponsor of, by Mr. 
Waxman, that expand the notion of what is protected speech. As 
I was saying that--typically, that--at least in the civil 
service world, in order to be a ``whistleblower'' and be 
protected, somebody must make a disclosure of some sort outside 
of their normal working chain of command that evidences a 
violation of law, gross mismanagement, or an imminent danger to 
public health and safety.
    When you think of a lot of these scientific cases that we 
are talking about, they don't fall into those categories, or in 
many instances, the scientist isn't making a disclosure. The 
scientist is basically reporting findings through the chain of 
command, or in some instances, is not allowed to report, and it 
is almost like the reverse of a whistleblower.
    The other aspect of it is that scientific careers are 
somewhat delicate. They are very easy to derail through things 
that other people might consider subtle, being left off of 
certain routing slips, not being invited to conferences. In 
other disciplines, that would be a welcome simplification of 
their life. In a scientific context, it could mean professional 
death.

             Environmental Technology Verification Program

    Mr. Wu. I want to jump to a different arena, and perhaps, 
either Dr. Gray or Dr. Morgan could best address this. It is my 
understanding that the Environmental Technologies Verification 
Program has been zero funded in the Administration's budget, 
and it is my further understanding that the 1986 amendments to 
the Superfund law don't leave that as discretionary funding. I 
believe that the Administrator is authorized and directed to 
carry out a program of technology verification.
    The reason why I am asking this is I think this is very, 
very important, that this is one of those arenas where better 
environmental protection through verification of environmental 
technologies actually helps build our economy. It is not an 
economic drag. It is an economic asset, and yet, this 
Administration has chosen to zero fund this.
    Can you explain how this has happened?
    Dr. Gray. Well, the Environmental Technology Verification 
Program, we call it the ETV, was first put in place in 1995. In 
fact, the legislation that authorized it suggested that it 
would be privatized within three years, that this was something 
that was intended to begin to help the private sector to 
identify and to verify that their technologies performed as--
that they could demonstrate performance of their technologies, 
and in fact, these verifications, which are carried out in six 
centers around this country, are used in advertising, for 
example, by the private sector, when they have something 
verified.
    But we haven't been quite as quick as we have been asked to 
be. This program has been on a trajectory toward private 
funding, and in fact, the plan is, in 2007, to have it entirely 
as funded by the private sector, though still supported through 
in-kind efforts by the Environmental Protection Agency, by ORD, 
to provide technical oversight and quality assurance, to make 
sure that the protocols in place for doing this testing are 
appropriate.
    Mr. Wu. Dr. Morgan, do you share Dr. Gray's optimism that 
this could be shifted this quickly to the private sector?
    Dr. Morgan. Let me just read you a short paragraph from my 
written testimony that addresses this.
    ``Following $9.6 million dollar reduction in 2006, 
sustainability research is slated for further reduction of $4.4 
million in 2007. These reductions are coupled with the 
termination of the Superfund Innovative Technology Evaluation 
Program, and the Environmental Technology Validation Program. 
This means that the Agency will lose much of its ability to 
test and verify new environmental technologies. This loss harms 
American industry's competitive position for environmental 
technology in world markets, at a time when other nations treat 
these technologies as opportunities.''
    My own view is that there may be ways that these sorts of 
activities could be made more effective, but if folks in the 
private sector are going to develop technologies which we can 
sell internationally in competitive global markets, some form 
of testing, certification, validation ought to be continued.
    Mr. Wu. Dr. Morgan, I am delighted. I saw that in your 
written testimony. I am delighted that you had an opportunity 
to bring that to the oral attention of everyone in this hearing 
room.
    I must share with you some grave reservations I have about 
an overall ideology of privatization. We have a private sector 
economy. I was active in that economy. I believe in the private 
sector economy, but when you start pushing embryonic things out 
without standards into the economy, you threaten some forms of 
development. This Administration believes in privatizing 
everything from Moon launches to the Marine Corps.
    When I went to Iraq, it was a clear instance where there 
were not enough ground troops on the ground, and there were a 
lot of people being paid $100,000, $120,000 a year as 
supplemental troops to the Marine Corps or the U.S. Army, and I 
had said that this Administration would privatize everything 
except for the U.S. Marine Corps, and I guess that is no 
exception.
    I thank the Chairman for his forbearance, and I ask 
unanimous consent to enter the February 7 Oregonian article 
into the record.
    Chairman Ehlers. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ehlers. And yes, you are testing my forbearance, 
but since----
    Mr. Wu. My job.
    Chairman Ehlers. Since we are good friends, I let you 
continue. But I am concerned about the fact that we have kept 
our witnesses here much longer than we normally would, and much 
longer than we have a right to expect.
    So I would like to conclude the questioning at this point, 
and give you an opportunity to be on your way. I would ask that 
if we have further questions for you, we would submit them in 
writing to you, and appreciate your willingness to respond to 
those in writing as well, so we can, if anything else occurs to 
us, we can make the record complete.
    Thank you very much. You have been an excellent panel. It 
is outstanding in every way, and we have addressed a lot of 
tough issues. But what--toughest issue I believe is not so much 
the management of the EPA, but the funding of the EPA, and I 
don't think we can meet the scientific requirements of this 
country unless we recognize that science does cost money, 
equipment costs money, and that we will soon be able to get you 
back on a track where your funding actually increases, rather 
than decreases.
    So we will work with that, and I am sure my colleague will 
join me in that effort, to try to perhaps not this fiscal year, 
but certainly in future fiscal years, ensure that you have the 
funding to do the research adequately.
    Thank you again for being here. We appreciate your efforts. 
And with that, the hearing is adjourned.
    [Whereupon, at 12:50 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by George M. Gray, Assistant Administrator for Research and 
        Development and EPA Science Advisor, United States 
        Environmental Protection Agency

Questions submitted by Chairman Vernon J. Ehlers

Q1.  Has the Environmental Protection Agency (EPA) asked the Department 
of Homeland Security (DHS) to cover part of the costs of the EPA's 
homeland security activities? Has EPA discussed with DHS the 
possibility of an interagency agreement that would provide funds for 
EPA to carry out its homeland security responsibilities?

A1. EPA's Office of Homeland Security (OHS) coordinates interactions 
between EPA and DHS on matters related to homeland security.
    EPA's homeland security roles and responsibilities are delineated 
in existing statutory authorities, Homeland Security Presidential 
Directives (HSPDs), and Memorandums of Understanding (MOUs) with other 
agencies. Planning documents and deliverables associated with a wide 
variety of collaborative homeland security-related projects are already 
under way between EPA and DHS and provide additional information about 
these activities. Those homeland security taskings that fall to EPA do 
so because of our expertise and experience as well as statutory roles 
and responsibilities. The President's Budget requests funding directly 
for EPA for these tasks assigned to EPA.
    EPA and DHS coordinate to make sure their respective homeland 
security roles remain complementary and coordinated. A Report to 
Congress was submitted to the Appropriations Committees last November 
which details the different roles and responsibilities and various 
Memorandums of Agreement that have been put in place to facilitate 
communication and coordination. EPA and DHS are working together to 
implement a number of homeland security-related efforts and personnel 
at all levels within our respective organizations communicate 
regularly. EPA and DHS co-chair standing committees and work groups 
regularly review one another's planning documents and deliverables and 
support one another on projects and activities of interest to both 
agencies.
    We feel the appropriate agreements and communication networks are 
in place to ensure a coordinated effort between our two agencies on 
homeland security collaboration.

Q2.  EPA is funding a one-city pilot of Water Sentinel in fiscal year 
(FY) 2006. Please identify the total federal funding that has been and 
will be spent on the pilot in each of FY06 and FY07. Please describe in 
detail the activities, equipment, and services that have or will be 
purchased with these funds. For each expenditure, please identify it as 
either intramural or extramural and categorize it in one or more of the 
following categories: basic research, applied research, development, or 
demonstration. If an activity falls into more than one category, please 
indicate as much. Please provide similar information for any other 
Water Sentinel expenditures in FY06 and to the extent possible for 
expenditures planned in FY07.

A2. EPA's Office of Water (OW) is responsible for implementing Water 
Sentinel.
    For FY 2006, EPA received approximately $7.9 million for the Water 
Sentinel pilot program, with another $1.0 million appropriated for the 
Water Alliance for Threat Reduction. Of the $7.9 million, about $1.4 
million funds the installation, evaluation, and operation of online 
water quality monitors (extramural: applied research, demonstration); 
$0.3 million supports routine and triggered sampling of high-priority 
contaminants (extramural: demonstration); $1.0 million funds consumer 
complaint monitoring, public health surveillance, and enhanced physical 
security (extramural: demonstration); $1.5 million provides laboratory 
support for processing samples (extramural: demonstration); $2.6 
million supports research and pilot support activities (extramural: 
applied research); $500,000 supports staff (intramural); and $600,000 
funds pilot evaluation (extramural: demonstration).
    For FY 2007, EPA requests $38 million for Water Sentinel, which 
includes funding for the second year of the FY06 pilot at approximately 
$2.7 million. Of the $38 million, approximately $7 million would fund 
the installation, operation, and evaluation of water quality sensors 
(extramural: applied research, demonstration). About $5 million would 
support routine and triggered sampling of high-priority contaminants 
(extramural: demonstration); $6 million would fund consumer complaint 
monitoring, public health surveillance, and enhanced physical security 
(extramural: demonstration); $7 million would provide laboratory 
support for processing samples (extramural: demonstration); $10 million 
would fund key research into evaluating detection technologies, 
validating analytical methods, and improving distribution system 
models; and about $3 million would support staff and pilot evaluation 
costs (50 percent intramural for staff, 50 percent extramural for 
evaluation: applied research, demonstration).

Q3.  Does EPA expect States or local governments to fund or provide in-
kind services during the Water Sentinel pilots? If so, what portions of 
the costs are they expected to contribute? Does EPA have any plans for 
deploying Water Sentinel after the pilots are completed? If so, please 
provide a copy of those plans. When are the Water Sentinel pilots 
expected to be completed, and when does EPA expect deployment to occur? 
Does the agency have any rough estimates of what it might cost to 
deploy Water Sentinel? If so, what are those estimates? What funding 
sources are being considered for funding deployment?

A3. EPA's Office of Water (OW) is responsible for implementing Water 
Sentinel.
    In general, the local government will contribute in-kind services 
in two critical areas to the pilot. First, the drinking water utility 
will make its distribution system available as a test bed for the Water 
Sentinel pilot program by coordinating with EPA in the installation of 
water monitoring stations and the deployment of other enhancements as 
appropriate (e.g., hardening remote distribution system facilities). 
Second, the local government will make key staff available to 
participate in the development of implementation and evaluation plans, 
which would include addressing consumer complaints, physical 
monitoring, online water quality monitoring, routine and triggered 
sampling, coordination with public health, data management, consequence 
management, and other activities necessary to initiate and sustain the 
pilot. In addition, EPA is developing a formal agreement with a State 
public health lab which has access to the resources (e.g., training and 
reagents) of the CDC's Laboratory Response Network (LRN). This 
arrangement will enable the Water Sentinel pilot to conduct critical 
analyses of high-priority biological agents.
    While FYs 2006 and 2007 involve preparing for and deploying Water 
Sentinel, the following years entail calibrating the contaminant 
warning systems and conducting extensive and thorough evaluation of 
each pilot. It is expected that the two years subsequent to the full 
deployment of Water Sentinel will focus on program evaluation. In the 
years following FY 2007, evaluating the utilities' experience with each 
of the five components of the contaminant warning system coupled with 
ongoing research and modeling activities will serve to improve EPA's 
understanding of how an effective contaminant warning system functions. 
Each of the five principal components of Water Sentinel (i.e., online 
water quality monitoring, sampling and analysis, consumer complaints, 
public health surveillance, enhanced physical monitoring) will have 
been subjected to field applications and evaluations throughout FYs 
2006 and 2007 so that, likely by FY 2009, EPA and the utilities can 
determine the most effective combination of data sources that can 
provide early indication of a contamination event.

Q4.  In your testimony, you mentioned that you are reforming the 
Integrated Risk Information System (IRIS).

Q4a.  Please identify the problems that these reforms are trying to fix 
and what changes you are contemplating to the review process.

A4a. IRIS began in the mid-1980s, and procedures have changed as 
needed. As with any maturing program, the IRIS program could benefit 
from enhancements and reforms that would make it even better. EPA 
recognizes that there are improvements that could be made to its IRIS 
health assessment process that would increase transparency, thus 
helping to improve full and open consideration and scientific review of 
relevant information. These proposed enhancements would focus on new 
approaches in risk assessment, new processes and procedures, and a more 
technically advanced web site.
    In the area of risk assessment approaches, one issue that the 
Agency is exploring is a more adequate explanation of uncertainty in 
IRIS assessments. An expanded discussion of uncertainty--the evaluation 
of the strengths and weaknesses of the underlying quantitative data and 
how we analyze, characterize, and communicate that information--will 
serve to increase the transparency of EPA's IRIS assessments. It will 
also continue to assure high-quality interpretation of scientific 
information in the development of IRIS products.
    In addition, EPA requested an increase of $500K to support IRIS 
assessments by providing peer review and consultation by the National 
Academies of Science (NAS). Expansion of reviews by the NAS directly 
improves the quality, objectivity, utility and integrity of information 
disseminated by EPA. NAS involvement will contribute to the 
identification and resolution of scientific issues and increased 
confidence in the scientific quality of EPA assessments. Review by the 
NAS ensures wide acceptance of the scientific conclusions reached in 
IRIS assessments.
    In the area of new processes and procedures, EPA is working to 
expand the ways and opportunities for the public and other federal 
agencies and states to engage in the development of IRIS assessments. 
EPA is working on a proposal to include earlier and more extensive 
interagency and stakeholder review and dialogue on IRIS assessments. 
This will also help to improve the assessments by identifying and 
resolving major scientific issues early in the assessment development 
process, which could facilitate high-quality and timely completion of 
assessments.
    As for the IRIS web site (www.epa.gov/IRIS), the current IRIS web 
site is very static and is structured like a paper data base, very 
linear. A more technologically advanced IRIS Internet site that would 
utilize the power of the Internet is envisioned for IRIS. This could 
include a more interactive data base, with links to key studies, links 
to relevant dose-response models or pharmacokinetic models, and a data 
base that could allow for complicated queries and reports.

Q4b.  Will your upcoming reforms add time to the process or require 
additional resources?

A4b. The IRIS reforms and enhancements that are briefly discussed above 
may result in added time to the development process as well as 
requiring additional resources. At this time, it is too early to 
determine the extent of the time and resources that may be needed. It 
is also possible that these changes may lead to quicker acceptance in 
the peer review stage, thus ultimately decreasing the total time it 
takes to finalize an IRIS document.

Q4c.  Will the agency seek public comment before finalizing any 
reforms?

A4c. EPA will hold a public workshop and will invite public comment on 
the revised IRIS processes. EPA is committed to an open and transparent 
process as it moves forward to enhance and strengthen this important 
Agency data base.

Q5.  During the hearing, you explained that EPA plans to focus IRIS 
resources on completing chemical reviews already under-way instead of 
adding new chemicals to the review list in FY07.

Q5a.  Why is there a backlog of IRIS reviews?

A5a. When the IRIS program began in the mid-1980s, it was conceived of 
as a cross-agency program for the purpose of developing EPA consensus 
risk information, both qualitative and quantitative, on environmental 
contaminants of interest to EPA's Programs and Regions. In the 
beginning, IRIS was an internal EPA communication method to ensure that 
the Agency was not producing conflicting risk assessments that 
generated different risk values. Shortly after the start of IRIS, EPA 
decided to share the data base with the public to quell the practice of 
``number shopping'' by external groups who would search among existing 
Agency assessments to find the number, or risk value, that most suited 
their purposes.
    For 15 years, IRIS was strictly a voluntary program with a staff of 
two, and less than a $100K budget. In the early years of IRIS, EPA 
programs nominated many chemicals for consideration by IRIS work 
groups--all voluntary, made up of program office, regional, and 
research and development scientists. All work group deliberations were 
internal to the Agency. When consensus was reached (which was not an 
easy achievement), the final IRIS summary assessment was posted on 
IRIS. It represented solely EPA's scientific consensus opinion. Because 
the IRIS program was voluntary and depended on donated time by already 
busy scientists, progress on completing the IRIS chemical nomination 
list was very slow. As the IRIS program evolved, growing in importance 
and gaining a higher profile in the environmental health and regulated 
communities, the chemical list also grew. Older assessments needed 
renewal and new chemicals were nominated to an already overflowing 
list.
    As IRIS continued to grow and attract interest, Congress and the 
President responded by providing additional resources and encouraging 
independent external peer review of all draft IRIS assessments before 
they were posted on IRIS. In addition, interagency review now occurs 
before each draft IRIS assessment is released for independent expert 
external peer review and public review before being publicly released 
on IRIS. These steps, while enhancing the quality and credibility of 
IRIS assessments, typically increase the time to complete assessments.
    It is also useful to note that many of the health assessments 
already in the IRIS queue have a large amount of underlying available 
scientific literature that needs to be analyzed and characterized, and 
many have complex scientific issues associated with them. Consideration 
of all the relevant data and analysis of the scientific issues takes 
time.
    In addition, as explained previously, the IRIS program is in the 
process of transition to consider some of the reforms and enhancements 
discussed earlier, which has led to some reconsideration of the 
direction of the assessments under development. Given the issues 
discussed above, and the nature and complexities of the review 
processes, developing and completing these assessments can take several 
years. Thus, EPA decided to concentrate current resources on the 
development of chemical assessments to which EPA has already committed.

Q5b.  How much more funding is needed per review to eliminate the 
backlog?

A5b. The FY 2007 President's Budget request for Human Health Risk 
Assessment is sufficient to complete planned assessments and to support 
proposed enhancements to the risk assessment process.

Q5c.  How much of this funding has EPA budgeted for in FY07?

A5c. EPA has requested an additional $500K for FY 2007 in the 
President's Budget for the IRIS program. In addition, over the past 
years EPA has increased the IRIS scientific staff from four to over 30 
experienced scientists representing a variety of scientific disciplines 
pertinent to IRIS health assessments. Available funding for IRIS has 
also increased. The total FY 2007 President's Budget Request for IRIS 
is $8.9M.

Q6.  In your testimony you explained that EPA's nanotechnology research 
to date has primarily been conducted through extramural research grants 
under the Science to Achieve Results program and that the FY07 request 
proposes to establish an in-house capability on nanotechnology. Could 
you explain specifically what the in-house program would do and how it 
would complement the proposed FY07 extramural program?

A6. EPA will continue its emphasis on supporting research that enhances 
understanding of the potential environmental implications of 
nanotechnology. Of the $8.6 million requested in the FY 2007 
President's Budget, $5.0 million will be devoted to extramural research 
funded through the Science to Achieve Results (STAR) program, 
supporting research in engineered nanomaterials in the areas of 
ecological toxicity; fate, transport, and transformation in the 
ecosystem; monitoring and detection techniques; and environmentally 
benign (pollution prevention) applications of nanotechnology.
    The $3.6 million in-house research program will focus on those 
areas where EPA has particular expertise and can complement the 
activities of other research organizations, and where Agency decision-
support needs are greatest. Although EPA is currently in the process of 
planning its research program for 2007 and beyond, potential research 
areas include assessing potential hazards from the use of nanomaterials 
for remediation and pollution control, because some of these uses 
involve the direct application of free nanoparticles into the 
environment and therefore present near-term potential for human or 
ecological exposure; developing risk assessment approaches; and 
ecological assessment, including understanding the transformation, fate 
and transport of nanomaterials in the environment; and developing 
technologies for pollution control and prevention. The in-house and 
extramural programs will be jointly planned and closely coordinated to 
ensure that they are complementary, as is done currently with other 
areas of research.

Questions submitted by Representative David Wu

Q1.  The Superfund Innovative Technology Evaluation or SITE program was 
established in response to the 1986 amendments to the Superfund law. 
Under the amendments, the Administrator is ``authorized and directed'' 
to carry out such a program. This program is not discretionary. It is 
mandatory. There is no funding in the 2007 budget proposal for this 
program. How does the Agency plan to carry out the activities mandated 
in the 1986 amendments with no funding for the program?

A1. The 1986 Superfund Amendments and Reauthorization Act (SARA) 
recognized a need for an ``Alternative or Innovative Treatment 
Technology Research and Demonstration Program.'' Part of the Agency's 
response to that need was the establishment of the SITE program. The 
purpose of the SITE program, which it carried out, was to demonstrate 
full-scale innovative hazardous waste treatment technologies and site 
characterization techniques. Since its inception, the SITE program has 
successfully demonstrated 154 treatment technologies and 47 site 
characterization/monitoring techniques. Through an evaluation of 105 
Records of Decision (RODs) in which innovative technologies were 
selected and documented, EPA found that SITE-demonstrated technology 
types provided a cost savings of $2.7 billion compared to the use of 
conventional technologies. This is an average savings of 71 percent per 
site. The SITE program has matured, and innovative approaches evaluated 
through it and other mechanisms have become standard tools for 
industry.
    With $1.2M in funding in FY 2006, the SITE program is completing 
ongoing and planned demonstrations of innovative remediation, 
monitoring, and measurement approaches. The Agency continues to support 
a rigorous research program that focuses on both the proper management 
of solid and hazardous wastes and the effective remediation of 
contaminated waste sites. ORD will continue to participate actively in 
the DOD-DOE-EPA Environmental Security Technology Certification Program 
for testing of new technologies applicable to environmental restoration 
at federal sites.

Q2.  In response to Dr. Ehlers' question on why EPA was not proposing 
any new chemicals to be added to the IRIS data base, you indicated EPA 
intends to ``clear the backlog of assessments'' that are now in 
process. Please provide a list of the assessments now in the process of 
assessment and a list of the assessments that will be completed in FY06 
and FY07.

Q2a.  Please provide a list of the assessments now in the process of 
assessment.

A2a. There are 72 health assessments under way in the IRIS program 
(please see Attachment 1). Attachment 1 is the Federal Register notice 
published on February 23, 2006, that announced the IRIS agenda for FY 
2006. On May 19, 2006, EPA published a corrected Notice that identified 
four substances that were deleted from the February 23, 2006, Notice. 
Bromodichloromethane, bromoform, dibromochloromethane, and 
cryptosporidium were included in the Notice in error. They were removed 
from the IRIS agenda at the request of EPA's Office of Water.

Q2b.  Please provide a list of the assessments that will be completed 
in FY06 and FY07.

A2b. Two chemical assessments for IRIS have already been completed and 
posted on the data base in FY 2006. They are n-hexane and phosgene. 
While it is difficult to predict with any accuracy the other 
assessments that may be completed and posted on IRIS in FY 2006, the 
health assessments that may reach that stage are: 1,2-dichlorobenzene; 
1,3-dichlorobenzene; and 1,4-dichlorobenzene.
    It is difficult to provide a list of expected completions in FY 
2007 with much precision. EPA's current estimation is that the IRIS 
health assessments that may be completed during FY 2007 are: four 
polybrominated diphenyl ethers, inorganic arsenic, tetrahydrofuran, 
nitrobenzene, dibutyl phthalate, trichloroacetic acid, ethylene oxide, 
2,2,4-trimethylpentane, bromobenzene, methyl tertiary butyl ether, 
carbon tetrachloride, acrylamide, 1,1,1-trichloroethane, and acute 
assessments for hexachlorocyclopentadiene, ethylene oxide, hydrogen 
sulfide, and phosgene. It should be noted that this list of expected 
completions does not match the list of expected completions, compiled 
in 2005, which was included in the FY 2007 Congressional Justification.

Q3.  During the hearing, a question arose regarding the time that EPA 
research reports are maintained in draft form and a question about 
whether draft reports are available to the public.

Q3a.  At what stage of the report-development process do EPA's draft 
reports become available to the public?

A3a. Scientific and Technical Work Products (non-IRIS)
    EPA has a policy of independent, expert review of scientific and 
technical work products that are used to inform Agency decisions. The 
draft reports discussed at the March 16, 2006, hearing would generally 
be covered by the EPA peer review policy.
    That policy, which is consistent with the Office of Management and 
Budget's guidance on peer review, provides for public comment to inform 
the independent expert review of influential scientific and technical 
work products. Therefore, we attempt to time the public availability of 
draft reports to coincide with scientific peer review. Such reports are 
available for review and comment in the EPA Science Inventory, as part 
of the EPA Peer Review Agenda, at www.epa.gov/si. Prior to peer review, 
we consider draft reports to be preliminary and generally not to be 
quoted or cited outside the Agency. We do not use draft reports as the 
basis for regulatory or policy decisions, although in some cases 
specific studies cited in the reports have been published in the 
scientific literature and are themselves used to inform decisions.

IRIS Assessments

    The current IRIS assessment development process generally provides 
for one opportunity for the public to review and comment on a draft 
document. When an internal draft is determined of sufficient quality 
and completeness, an independent external expert peer review is 
scheduled. The draft document is provided to the peer review panel and, 
at the same time, the draft document is provided to the public for a 
45- to 60-day comment period. The length of the comment period is 
dependent on the size, interest level, and complexities of the 
assessment. The announcement of the availability of the draft document, 
the start of the public comment period, directions on how to submit 
comments and, often times, the time and place of the peer review 
workshop are included in a Federal Register notice and on EPA's web 
site. If the details of the peer review meeting are not available when 
the draft document is released for comment, the Agency then follows up 
with a subsequent Federal Register notice. The public comments received 
by the end of the public comment period are then shared with the 
members of the expert peer review panel to inform them as they review 
and critique the EPA's draft health assessment. In rare cases, however, 
the peer review results in substantive revisions to a draft document 
such that the Agency determines that a second peer review is necessary. 
In that case, public comments are solicited on the 2nd external review 
draft as well.

Q3b.  Please provide a list of the reports that moved from draft status 
to final status during 2004 and 2005.

A3b. The following chemicals were completed and added to IRIS in FY 
2004 and FY 2005.

        2004: boron; lead; 1,2-dibromoethane; 2-methylnaphthalene

        2005: perchlorate; barium; zinc; toluene

Q3c.  For each of these reports, indicate the period of time the report 
was in draft form prior to being finalized.

A3c. The time span below represents the time from availability of the 
first external review draft to the posting on IRIS.

        2004:

        Boron--May 2002-August 2004 (28 months)

        Lead--September 2003-July 2004 (11 months)

        1,2-Dibromoethane--November 2002-July 2004 (21 months)

        2-Methylnaphthalene--April 2003-December 2003 (nine months)

        2005:

        Perchlorate--December 1998-February 2005 (74 months)

        Barium--May 2004-July 2005 (15 months)

        Zinc--November 2003-August 2005 (22 months)

        Toluene--August 2002-September 2005 (28 months)
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

               Statement of the American Chemical Society

    The American Chemical Society (ACS) would like to thank Chairman 
Sherwood Boehlert and Ranking Member Bart Gordon for the opportunity to 
submit testimony for the record on the Environmental Protection Agency 
(EPA) science and technology programs for fiscal year 2007.
    ACS is a non-profit scientific and educational organization, 
chartered by Congress, representing more than 158,000 individual 
chemical scientists and engineers. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry, and brings its expertise to bear on State, 
national, and international matters.
    As Congress and the Administration consider funding priorities for 
FY 2007 in a tight budgetary environment, ACS urges policy-makers to 
support the important work carried out by the Environmental Protection 
Agency's Science and Technology Program. In reviewing the President's 
budget request, ACS has identified four areas of focus for EPA:

        1.  Growing the EPA Science & Technology account and increasing 
        support for scientific research supported by the Agency, 
        particularly through the Office of Research and Development 
        (ORD).

        2.  Restoring important programs that build the talent pipeline 
        for the environmental sciences, such as the Science To Achieve 
        Results (STAR) fellowships.

        3.  Increasing support for green chemistry and engineering 
        programs and reversing the short-sighted decision to eliminate 
        the Technology for Sustainable Environment research program.

        4.  Reforming the management structure for science at EPA.

    We look to science to understand environmental challenges and to 
develop more intelligent, less burdensome solutions. Over the past two 
decades, demand for more scientific evidence--whether it's to set or 
improve regulations--has grown substantially. The amount of research 
envisioned in EPA-related authorizations also has increased. 
Nevertheless, appropriations for EPA science programs have not kept 
pace with the need for more and better science.
    Over the last 20 years, the EPA S&T account, which includes the ORD 
and research programs in other EPA Offices, has fluctuated between 
seven and ten percent of the Agency's total budget. In order for EPA 
set science-based national environmental standards, conduct research 
and environmental monitoring, and provide technical assistance to 
States, local governments, and businesses, the S&T account needs to 
increase as a percentage of the Agency's total budget, ultimately to a 
stable ten percent level. The President's budget request is nominally 
$788 million, a nearly eight percent increase over FY 2006; however, 
$62 million of this amount is an accounting change in Agency accounts. 
In real terms, S&T would be reduced one percent. ACS recognizes the 
tight fiscal situation the country faces, but strongly believes that 
substantial constant-dollar decreases in funding for the S&T account 
will only hinder the ability of EPA to achieve its mission.
    For FY 2007, EPA should provide the ORD account $646 million, an 
increase of 8.6 percent relative to FY 2006 funding levels. This total 
represents a return to ORD high funding point (FY 2004). ACS recommends 
that the additional funds be applied to the following priority areas:

        <bullet>  Provide $10 million for the STAR fellowships.

        <bullet>  Increase overall STAR programmatic funding to $110 
        million.

        <bullet>  Increase funding of green chemistry and engineering 
        to advance the development and use of innovative, 
        environmentally benign products and processes.

        <bullet>  Invest in EPA's ability to recruit, develop, and 
        retain an effective scientific workforce.

        <bullet>  Continue investing in federal research and technology 
        development to reduce or avoid greenhouse gas emissions and 
        address the potential impacts of global climate change.

        <bullet>  Support innovative and high-risk research that may 
        help identify and explore future environmental problems and 
        develop new sets of technologies to solve existing problems.

    The FY 2007 budget request continues a pattern of declining support 
for science at EPA for the Office of Research & Development, which is 
the largest part of the S&T account. The Administration requested $557 
million for ORD in FY 2006. This represents a 6.4 percent cut in ORD 
resources over FY 2006. The $38 million decrease in ORD accounts from 
FY 2006 threatens ORD's mission to carry out world class environmental 
research, further damaging the government's ability to provide top 
notch research on behalf of the American taxpayer and ensure America's 
policy makers use sound scientific advice in decision-making.
    The Administration's proposal to eliminate the STAR fellowship 
program is a good case in point. This program is the only federal 
program dedicated to graduate study in environmental sciences at 
colleges and universities across the country. The STAR fellowships are 
part of a cohesive effort to characterize critical or emerging 
environmental problems and create solutions to address them. EPA 
designed this extramural research grant program to work in cooperation 
with a fellowship program. Together, they provide ideas, information, 
new discoveries, and new researchers. Today's STAR fellows will become 
tomorrow's environmental experts working for industry, government 
agencies like EPA, and academic institutions. The loss of this program 
will further erode the Agency's capability to attract an excellent 
workforce and will reduce the amount of scientific information 
available to inform Agency decisions.
    ACS supports increased funding for green chemistry and engineering 
programs to advance the development and use of innovative products and 
process, reducing or eliminating the use of hazardous substances. 
Because chemistry and chemical products fuel the economy of every 
industrialized nation, the tools and strategies chemists and chemical 
engineers develop will be instrumental in meeting the dual challenges 
of protecting the environment and strengthening the economy. The 
elimination of the Technology for Sustainable Environment research 
program under STAR was an unfortunate decision that hobbles the 
Agency's ability to work creatively with industry and others to carry 
out the mission through cost-effective technology substitution as 
opposed regulatory burdens.
    Finally, ACS remains concerned about broader management issues 
raised by the long-term decline in support for EPA science and 
technology programs. ACS understands the often confrontational nature 
of the regulatory process; however, EPA's organizational structure 
reinforces this tension by housing the Agency's main scientific 
functions in an office that is:

        <bullet>  Inadequately funded;

        <bullet>  Not budgeted independently or separately bylined in 
        the annual appropriations process;

        <bullet>  Not often given specific authorizing legislation;

        <bullet>  Forced to compete with its own internal offices--its 
        principal customers--for attention and resources; and

        <bullet>  Often criticized for the quality of its science and 
        its inability to apply this science to environmental decisions.

    In previous Congresses, the Science Committee passed legislation 
addressing many of these issues; unfortunately the situation today is 
even more important and urgent. The ability of the government to 
marshal scientific expertise and resources in the wake of the terrorist 
attacks has been tested severely. EPA has applied its expertise and 
workforce to the anthrax clean up, testing and assessment at the World 
Trade Center site, and other efforts. New issues also have arisen, such 
as the need to assure that access to government information does not 
provide tools to terrorists and the need for stronger data quality 
standards within government agencies. ACS endorses the creation of a 
Deputy Administrator for Science and Technology, as suggested by the 
National Research Council's report in 2000, Strengthening Science at 
the U.S. Environmental Protection Agency. A Deputy Administrator for 
Science and Technology would add considerably to an effective and 
efficient EPA response to these challenges.
    ACS is a long-term advocate for increased attention to research 
programs at EPA, both in budgetary and in management terms, and our 
enthusiasm for these programs remains strong. We also appreciate the 
Science Committees support for EPA Science and Technology programs and 
look forward to working with the Committee, Congress, and the 
Administration to ensure their future vitality. ACS thanks the 
Committee for this opportunity to submit its written testimony and 
would be happy to clarify, expound, or answer any questions made in 
this written testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
